<html>
<title> - ALASKA RESOURCE DEVELOPMENT--OPPORTUNITIES TO CREATE JOBS AND STRENGTHEN NATIONAL SECURITY</title>
<body><pre>[Senate Hearing 114-497]
[From the U.S. Government Publishing Office]






                                                       S. Hrg. 114-497

                      ALASKA RESOURCE DEVELOPMENT_
                    OPPORTUNITIES TO CREATE JOBS AND
                      STRENGTHEN NATIONAL SECURITY

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             MARCH 28, 2016

                               ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Printed for the use of the
               Committee on Energy and Natural Resources

           Available via the World Wide Web: http://fdsys.gov



















                                                        S. Hrg. 114-497

                      ALASKA RESOURCE DEVELOPMENT_
                    OPPORTUNITIES TO CREATE JOBS AND
                      STRENGTHEN NATIONAL SECURITY

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 28, 2016

                               __________




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources


           Available via the World Wide Web: http://fdsys.gov
           
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-970                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                 Kip Knudson, Professional Staff Member
                   Annie Hoefler, Executive Assistant
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
      Stephanie Teich-McGoldrick, Democratic Congressional Fellow
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1

                               WITNESSES

Anderson, Michelle, President, Ahtna, Inc........................     4
Barrett, Admiral Tom, President, Alyeska Pipeline Service Company     9
Glenn, Richard, Executive Vice President for Lands and Natural 
  Resources, Arctic Slope Regional Corporation...................    15
Marushack, Joe, President, ConocoPhillips Alaska.................    26
Jeffress, Bill, Principal Consultant, SRK Consulting.............    47
Jorgensen, Bronk, Fortymile Mining District......................    53
Simon, Lorali, Vice President, External Affairs, Usibelli Coal 
  Mine, Inc......................................................    57
Tangen, J.P., Attorney at Law, Alaska Miners Association.........    64
Beltrami, Vince, President, Alaska AFL-CIO.......................   259
Herbert, Lisa, President and CEO, Greater Fairbanks Chamber of 
  Commerce.......................................................   265
Hutchinson, Chad, Director, Fairbanks Pipeline Training Center...   272
Pomeroy, Kevin, Business Manager/Secretary-Treasurer, Laborers' 
  Local 942......................................................   276

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Anderson, Michelle:
    Opening Statement............................................     4
    Written Testimony............................................     7
Barrett, Admiral Tom:
    Opening Statement............................................     9
    Written Testimony............................................    11
Beltrami, Vince:
    Opening Statement............................................   259
    Written Testimony............................................   262
Fairbanks Economic Development Corporation:
    Letter for the Record........................................   308
Glenn, Richard:
    Opening Statement............................................    15
    Written Testimony............................................    17
Herbert, Lisa:
    Opening Statement............................................   265
    Written Testimony............................................   268
Hutchinson, Chad:
    Opening Statement............................................   272
    Written Testimony............................................   274
Jeffress, Bill:
    Opening Statement............................................    47
    Written Testimony............................................    50
Jorgensen, Bronk:
    Opening Statement............................................    53
    Written Testimony............................................    55
Longan, Sara:
    Statement for the Record.....................................   309
Marushack, Joe:
    Opening Statement............................................    26
    Written Testimony............................................    28
Milkowski, Stefan:
    Letter for the Record........................................   313
Murkowski, Hon. Lisa
    Opening Statement............................................     1
Pomeroy, Kevin:
    Opening Statement............................................   276
    Written Testimony............................................   279
Schaetzle, Eric:
    Article entitled ``Global Trends in Renewable Energy 
      Investment 2016''..........................................   296
    Letter for the Record........................................   315
    Article entitled ``An Alaskan Roadmap to 100% Renewable 
      Energy'' dated 1/30/16.....................................   316
Simon, Lorali:
    Opening Statement............................................    57
    Written Testimony............................................    59
Tangen, J.P.:
    Opening Statement............................................    64
    Written Testimony............................................    66
 
     ALASKA RESOURCE DEVELOPMENT--OPPORTUNITIES TO CREATE JOBS AND 
                      STRENGTHEN NATIONAL SECURITY

                              ----------                              
                              
                              
                              

                         MONDAY, MARCH 28, 2016

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                     Fairbanks, AK.
    The Committee met, pursuant to notice, at 1:00 p.m. AKDT at 
the Pipeline Training Center, 3605 Cartwright Court, Building 
C, Fairbanks, Alaska, Hon. Lisa Murkowski, Chairman of the 
Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good afternoon and welcome to all of you. I 
would like to thank the Pipeline Training Center for allowing 
us to be here this afternoon for this field hearing of the 
Senate Energy and Natural Resources Committee.
    Before I begin my remarks I would like to invite Chad 
Hutchinson to come up and give us a little bit of a welcome and 
a safety moment, if you will.
    Mr. Hutchinson. Hello, everybody. Welcome to Fairbanks 
Pipeline Training Center. I thank everybody for coming to join 
us today.
    We're just going to start out and have a safety minute as 
we do with all trainings here at the Training Center.
    The first thing I'd like to point out is the exits. In case 
of emergency there are the four exits over to the side, out the 
back, down the hall.
    Muster point, if we all have to leave we'll be over at 
camp. We have a construction camp over here and it's got a big 
letter E on top of it, E. So that will be our muster point.
    There's an AED (defibrillator) just across the hall out 
here on the right.
    The rest rooms are just across the hall to the right also.
    It is great that you all have come to Fairbanks. You're all 
looking very excited. You want to get out. You want to do 
things. Temperatures are getting up into the 40s, but we have 
to keep in mind it's getting down into the 20s at night, so 
it's still freezing. Allow yourselves a little bit of extra 
time, especially in the morning, tomorrow morning. They say 
it's going to snow a couple inches tonight, again. So if that 
happens we all know there's going to be ice underneath that 
snow. So we're going to have to be careful where we're walking, 
going to have to pay attention.
    My wife, as some of you know, she's still getting over a 
surgery on her shoulder. She slipped in a parking lot on ice. 
So please, take your time, walk.
    That concludes our safety minute.
    So with that, thank you, Senator.
    The Chairman. Thank you, Chad, we appreciate it. And again, 
thank you for the opportunity to be in your facility here 
today.
    I would like to welcome all of the witnesses that have 
joined us for an important discussion about resource 
development within the State of Alaska.
    As many of you, I am sure, know, it was gold mining that 
ultimately determined the location of Fairbanks. It was Captain 
Barnette's river boat that ran aground on the Chena and fate 
determined where his mining supply business was to be located. 
While Barnette was, perhaps, too late and too far away to 
profit from the Klondike gold rush, he was part of the 
Fairbanks gold rush that led us to modern day.
    Today Fort Knox and Pogo, both world class mines north and 
south of the city, continue the proud tradition to give meaning 
to Fairbanks' motto: The Golden Heart City.
    This region, like so much of our state, is blessed with 
vast natural resources that we can use to gain prosperity and 
fulfill promises of statehood.
    Today is Seward's Day. I actually forgot about that when we 
scheduled this hearing. But it is Seward's Day and there is 
still a little bit of laughter and chuckle when people think 
about Seward's ice box or Seward's folly. But not even Seward 
could have conceived of the vast resource wealth when the U.S. 
purchased this amazing state from Russia.
    Alaska has what virtually no one else has: Tens of billions 
of barrels of oil, hundreds of trillions of cubic feet of 
natural gas, a massive supply of coal, countless deposits of 
hard rock minerals, and of course, renewable resources beyond 
imagination. If we can harness them, then we can supply them to 
the rest of our nation to sustain our growth, our 
competitiveness and our security.
    Really our hardest task is not in finding the resources or 
developing the know-how or recruiting the manpower needed to 
responsibly produce them. Instead, it is really overcoming the 
restrictions that are imposed, oftentimes, by our own Federal 
Government which fails to understand why Alaskans must be 
allowed to explore and to develop.
    Tens of millions of acres of our lands and waters have been 
unilaterally withdrawn in recent years, against our strongest 
objections, and in my view, oftentimes in violation of the law. 
The 10-02 area of ANWR remains locked away. The Federal 
Government has made commercial production all but impossible in 
the offshore Arctic. It took far longer for CD-5 in a National 
Petroleum Reserve to gain regulatory approval than it should 
have.
    We have also witnessed repeated attempts to expand the use 
of pseudo wilderness designations from ``aquatic resources of 
national importance'' to ``areas of critical environmental 
concern'' and ``outstanding national resource waters,'' all to 
circumvent ANILCA's ``no more'' clauses and to stop 
development. At the same time federal agencies have generally 
become less cooperative, less willing to work with us to get to 
``yes,'' and instead start and stay at ``no.''
    Even producing on state lands has become more difficult, 
more costly, more complex and more time consuming for the likes 
of ASRC and Ahtna by virtue of actions that are taken at the 
federal level.
    We also face a crush of national regulations, from the 
Waters of the United States Rule to the Stream Protection Rule 
and a movement that believes that keeping needed resources in 
the ground will somehow result in a safer, more stable world.
    All of this comes at a time of low resource prices, at a 
time when the Federal Government should be trying to protect 
the competitiveness of our extractive industries, not finding 
ways to close off access and strand their capital. This is a 
time when we should be opening our lands and waters to 
responsible development, streamlining the permitting process 
and working to ensure that protests and litigation do not hold 
us back. This is a critical time for resource production in our 
state.
    I believe that we need to speak up. We need to highlight 
the hypocrisy that we see in efforts to lock down our lands 
while at the same time demonstrating how well we care for the 
environment as we develop our natural resources. There is no 
better way to do that than by hearing from Alaskans who know 
the benefits that come from increased resource production and 
what needs to be done at the federal level to unleash our 
potential.
    We have played a tremendous amount of defense in recent 
years and in many ways have, kind of, held our own. But in the 
remaining months of this Administration we could, yet again, be 
put back on our heels. We must be prepared for a new 
Administration that will take office just ten months from now, 
not knowing whether it will be friendlier in nature or perhaps 
even more antagonistic.
    We have got our work cut out for us. That any resource 
project can survive the current interplay between federal 
agencies and millions of pages of rules and countless more 
pages of guidelines, manuals, legal opinions and planning 
documents seems almost miraculous, but we know that it can be 
done.
    The states, including Alaska, typically permit projects in 
a fraction of the time that it takes the Federal Government. 
The offshore regulatory regime imposed in Alaska may be 
chaotic, but look at other countries. Look at Norway and Russia 
that have vibrant programs in their OCS regions. We can also 
look around the world and realize that it should take far less 
than seven to ten years for a new mine to begin operation.
    But I am optimistic about Alaska's future. We have 
resources that all other nations covet. We are a provider in a 
growing and hungry world.
    We know that prices are low right now, but we have seen 
prices go up and we have seen prices go down. A majority of our 
citizens strongly support production because they understand 
the wide ranging benefits that ``Made in the U.S.A.'' carries, 
whether it is high paying jobs, to revenues, to energy and 
national security.
    So today we are gathering good ideas and counsel on how we 
might amend, reform, direct and provide oversight of federal 
law in federal agencies. This is an opportunity, again, to hear 
from many in the sectors across the state. We have three strong 
panels that are with us this afternoon.
    The plan, or the schedule, for the next almost three hours 
will be to hear from the three panels, taking testimony about 
five minutes from each witness. I will have an opportunity at 
the conclusion of each panel to direct questions to the 
panelists. Once we have concluded the three panels, if we have 
time before the conclusion of the four o'clock hour, which I am 
most hopeful that we will, we will invite people who have 
joined us here this afternoon to offer their public comment. We 
ask that the comment be limited.
    There is a signup sheet somewhere in the back, at the back 
of the room there with Mr. Hammond. When we get to that point 
in the afternoon, we will give further instructions as to how 
we are going to move forward with that portion of the 
testimony.
    With that, I would like to commence with the first panel.
    It will be led off by Michelle Anderson, who is President 
of Ahtna Incorporated. It is good to have Michelle here in her 
leadership in a host of different areas. We just visited last 
week down in Anchorage.
    Admiral Tom Barrett, who is the President of Alyeska 
Pipeline Service Company, is with us.
    He will be followed by Mr. Richard Glenn, who is the 
Executive Vice President for Arctic Slope Regional Corporation.
    The final panelist on panel one is Mr. Joe Marushack, who 
is President for ConocoPhillips, Alaska.
    Know that your full written statements will be included as 
part of the record as will all those who provide testimony to 
us this afternoon.
    So welcome to the field hearing, and thank you for being 
here. Michelle, if you would like to begin with your comments.

     STATEMENT OF MICHELLE ANDERSON, PRESIDENT, AHTNA, INC.

    Ms. Anderson. Thank you. Thank you, Senator.
    Good afternoon. My name is Michelle Anderson. I am pleased 
to have the opportunity to provide comments to the Committee. I 
am a charter member of the Native Village of Gulkana, an Ahtna 
Shareholder and President of Ahtna, Incorporated.
    Ahtna is the smallest Alaska regional corporation 
established under ANCSA in 1971 and represents the interests of 
over 1,900 Ahtna Athabascan shareholders. The Ahtna region 
encompasses eight villages and holds title to 1.6 million acres 
of land in South Central Alaska. All of our villages are 
connected by the road system. Raised in the Ahtna region, I am 
deeply committed to protecting my culture and our way of life, 
responsible land development and securing economic benefits for 
those I serve. I believe that these goals can coexist.
    Ahtna's lands extend from the Denali Preserve to the 
Chitina. They surround North America's tallest peak, Mt. 
Denali, to America's largest national park, Wrangell-St. Elias. 
Ahtna has 622,000 acres of land in the Wrangell-St. Elias 
National Park and Preserve, lands that our elders selected 
prior to the creation of the park. Ahtna is now one of the 
largest in-holders of private property within public lands in 
the United States.
    Our lands are of paramount importance to the Ahtna people 
who have lived here for thousands of years and depend on 
hunting, fishing and other resources to sustain our way of 
life.
    Ahtna's leaders have made it possible for the Trans-Alaska 
Pipeline System (TAPS) to be constructed from 1974 to 1977. A 
55-mile corridor through Ahtna's fee-simple lands was set aside 
for the 48-inch diameter pipeline. TAPS Pump Station 11 and the 
Glennallen Response Base were built near my family's home.
    TAPS has transported approximately 17 billion barrels of 
oil through our lands in a safe and environmentally sound 
manner. My family, like so many others, directly benefitted 
from TAPS as both my parents worked on the pipeline. In fact, 
my father still works on TAPS today for Alyeska Pipeline 
Service Company.
    Ahtna's shareholders and many other Alaska regional and 
village corporations have benefitted from TAPS with employment, 
contracting and training opportunities. In 2015, 39 percent of 
Ahtna employees on TAPS were Alaska Natives. These are highly 
paid jobs in a great work environment.
    Ahtna's concern is that TAPS is operating at approximately 
25 percent of its capacity. The State of Alaska with Prudhoe 
Bay and Kuparuk have opened up their lands for safe and 
responsible resource development. Alaska Native Corporations 
like ASRC and Kuukpik Corporation made Alpine possible.
    ASRC shares 70 percent of the profits derived from Alpine 
with other regional corporations as a provision of 7(i) of 
ANSCA. Alaskans finally got our first North Slope oil in the 
federally-owned NPRA with CD-5 in late 2015. ConocoPhillips and 
its predecessor companies have tried for a very long period of 
time to develop oil.
    Senator Murkowski has been a vocal advocate of cleaning up 
NPRA from damages inflicted by the Federal Government over the 
last 60 plus years and it's finally happening.
    It takes years, even decades, to drill just one exploratory 
well when the Federal Government is involved in the process. 
Our TAPS pipeline needs a lot more oil which needs to come from 
federal lands.
    Speaking as a mother of two sons in college, they will need 
work opportunities to remain living in Alaska. The Federal 
Government owns over 60 percent of Alaska's 365 million acres 
of land. Ahtna has proven that a major world-class pipeline 
like TAPS can safely transport through our own lands. TAPS just 
needs more oil, particularly from federal lands, to keep 
running for future generations.
    In August 2015 I had the pleasure of meeting with President 
Obama along with other Alaska Native leaders. I stressed to the 
President the importance of Alaska LNG for all Alaskans. 
Approximately 35 miles of proposed Alaska LNG pipeline would 
flow underneath our beautiful Ahtna land. The Ahtna people will 
require this project to be constructed to the highest worldwide 
standards including materials and personnel. We are confident 
that the State of Alaska and its industry partners will be able 
to deliver.
    For the benefit of Ahtna shareholders and all Alaskans we 
need the Federal Government to open up their lands in a timely 
manner. This must include efficient land uses, permitting and a 
collaborative relationship with the State of Alaska and 
industry for both oil and gas and mining. Ahtna owns some of 
the most pristine lands in the world and we have proven that 
development can occur safely and to the economic benefit of all 
Alaskans. The vast majority of Alaska's federally-owned, 
resource rich lands are seldom, if ever, seen by Alaskans.
    In 1971, 45 years ago, ANCSA was passed. Ahtna was to 
receive title to land of 1.77 million acres. All these years 
later we are still waiting for a quarter of a million acres to 
complete our land settlement. Alaskans are frustrated that the 
Federal Government does not move very fast when Alaska acreage 
is part of the equation.
    We need the Federal Government to take a proactive approach 
with their vast acreage to provide economic benefits for Ahtna 
and all Alaskans. Several Alaska regional corporations, 
including Doyon and Ahtna, are attempting to develop our own 
lands for oil and gas. We need major oil and gas and mining 
companies to continue making multi-billion dollar investments 
in Alaska to keep TAPS running for the next 40 years to protect 
our Ahtna culture and to provide economic benefits to our 
shareholders.
    On behalf of all the Ahtna people I sincerely appreciate 
the opportunity to speak today. Tsin'aen.
    [The prepared statement of Ms. Anderson follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.001
    
    [GRAPHIC] [TIFF OMITTED] T1970A.002
    
    The Chairman. Thank you, Michelle.
    Admiral Barrett, welcome to the Committee.

 STATEMENT OF ADMIRAL TOM BARRETT, PRESIDENT, ALYESKA PIPELINE 
                        SERVICE COMPANY

    Admiral Barrett. Chairman Murkowski, thank you for the 
opportunity to testify. I'm particularly delighted to have this 
opportunity to be at the Pipeline Training Center. Alyeska has 
been proud to be part of supporting this organization since 
start-up and they have helped train many of the high skilled, 
very smart and very tough workers that our company, our 
industry and actually, the state depends on. So I want to thank 
them for that also. They've been a huge basis of support for 
us.
    TAPS, the Trans-Alaska Pipeline System, is fundamentally 
sound infrastructure, although it's a little low, but it's 
fundamentally sound. We have an extremely strong workforce, but 
we're operating well under capacity.
    This morning I saw a note from our Oil Movement Engineering 
Director. He was up at Pump Station One on Friday, and we ran a 
successful full load test on new pumps that we've installed up 
there, new booster pumps. That's part of our renewal process on 
the system. And so we ran them up to a full load and proved 
that it was running fine. That's 1.09 million barrels for a 
full load.
    Today is one of the best days we've had this winter on the 
pipeline, and our numbers are higher in the winter than in the 
summer. We were at 556,000 barrels. So without any change, 
without any strain, without any lift, we could take in up to 
1.09 million barrels if it was available to us today.
    The low flow, as you know and I've talked about before, it 
creates many challenges with water and wax and just the flow 
rate. It's, kind of, like your car. It's designed to actually 
to run very efficiently when your vehicle is at 55/60 miles an 
hour down the highway. If you ran it all the time at 15 or 20 
miles an hour, you'd get super build up and your spark plugs 
would clog. Pretty soon you would get backfires. You need to 
maintain the car much more aggressively.
    And that's kind of, TAPS. We're running well below the 
space that we were designed to run. We're confident we can 
handle that. We've got a great, great workforce and are 
constantly renewing, but it is costly. It's increasingly 
complex, and it's difficult for us to do.
    We do know, and our workforce knows, both our own employees 
and our contractors, that we need to operate safely, and we do. 
Last year was the safest year ever in TAPS history. We had near 
perfect reliability. We had an extremely strong environmental 
record.
    And as you look around at some of the recognition our 
people have gotten, we received the API Large Pipeline Operator 
Award for environmental performance, we received the Governor's 
Safety Award, for the fifth year in a row we were selected as 
one of the world's most ethical companies, and we received for 
our Vessel of Opportunity Program in Prince William Sound a 
Stewardship Award from the Alaska Sea Life Center.
    My point to you though is that the backbone of our 
organization is not simply infrastructure. It's our people, 
both blue collar and white collar workforces. We're over 90 
percent Alaska-based, 70 percent by the way of partnerships 
with our contractors, our Alaska-based companies. We're 20 
percent Alaska Native. We're over 30 percent women. We're over 
33 percent minority. And our key partners include companies 
like Doyon and ASRC and Ahtna and Chugach and NANA. We're very 
proud of that.
    And our people, in many cases, are the backbones in their 
communities so the benefit that comes is not just the jobs, but 
the people that come with those jobs, the families that come 
with those jobs and what they contribute to their communities 
whether it's food banks, United Way, coaching sports teams, 
being active in churches. They are the backbone of many Alaska 
communities, and we're very proud of that. They're very 
generous with their time, their leadership and their energy.
    So the key to keep our sustained ability is throughput. I 
heard a statement--up in Fairbanks here you had a big week last 
week with the Arctic Council meetings. I heard Else-Berit 
Eikeland, the Norwegian Ambassador to the Arctic Council, speak 
two weeks ago in Anchorage. She said Norway supports more oil 
development in the Barents Sea, and this is a senior Norwegian 
official, recognizing the risks.
    She said the reason they can get it is because they 
understand that what comes with that development is foundation 
to the health and well-being of their communities. Norway has 
the highest percentage of its population of any circumpolar 
nation living above the Arctic Circle. So I think that's the 
opportunity to both sustain and create more opportunities for 
that population.
    Senator, you mentioned many times before, we need better 
access. We need to improve the regulatory environment. If we 
get that I think we can safely deliver oil that benefits U.S. 
national security, the State of Alaska proudly and many 
thousands of people who work on support and benefit from our 
activities.
    Thank you very much.
    [The prepared statement of Admiral Barrett follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.003
    
    [GRAPHIC] [TIFF OMITTED] T1970A.004
    
    [GRAPHIC] [TIFF OMITTED] T1970A.005
    
    [GRAPHIC] [TIFF OMITTED] T1970A.006
    
    The Chairman. Thank you, Tom.
    Mr. Glenn, welcome. It is good to see you escaped from the 
volcano. Barrow is closed down because of the volcano.

STATEMENT OF RICHARD GLENN, EXECUTIVE VICE PRESIDENT FOR LANDS 
    AND NATURAL RESOURCES, ARCTIC SLOPE REGIONAL CORPORATION

    Mr. Glenn: Yes, if you're headed to Bethel or Nome or 
Kotzebue or Barrow, you shouldn't be flying today. The airlines 
closed down the west half of the north portion of our state.
    Thank you, Senator, for inviting me to this hearing. My 
name is Richard Glenn. I'm Vice President of Lands and Natural 
Resources for Arctic Slope Regional Corporation (ASRC), and I 
am grateful to be on this panel today.
    I was excited to learn about Ahtna's history. And I hope 
that in my brief testimony you'll get a little bit of a picture 
of the Arctic Slope region as well and our views on these 
important issues.
    There's four key points that I'd like to present today, and 
my written testimony will go into greater detail. These points 
focus mostly on the challenges and barriers to responsible oil 
and gas development and mineral development in Alaska.
    We are an oil- and gas-dependent state, and resources 
extracted from our region are the main artery of Alaska's 
economy. Over the years we've faced significant challenges and 
my written comments goes into detail, chapter and verse, on 
those challenges.
    The four broad points I'd like to take a look at is first 
of all, look at the balance of development with respect to 
communities, Arctic communities.
    Today's debate seems to sway from absolute, complete, 
developing protection and stayed there rather than just balance 
of responsible development and protecting the environment, safe 
development. Rather than mothballing our resources at the 
detriment of local communities, consider how tribal and native 
communities are empowered by development and whether the risk 
has already been mitigated in the plan for development. Our 
local leadership works to provide controls on development in 
our region so that the mitigation is already there when the 
development proceeds.
    This preserves the environment, this allows for our local 
economy and it allows our local subsistence activities to put 
food on our tables. The local perspective should not be 
overlooked, dismissed or marginalized as the Federal Government 
develops resources in the Arctic.
    Second, I would urge that the Federal Government resist the 
permanent setting aside of large swaths of land and ocean in 
the name of, for example, species protection. The Arctic is 
home to these huge migrations of animals, that go from East to 
West, North to South, and they go in and out of the frame of 
the picture for any small, special set-aside patch of land or 
ocean. It's the migration and seasonality of ice cover and open 
water is so big that it renders these small parcels almost 
meaningless.
    The polar bear critical habitat designation, for example, 
which is about as big as the State of California is probably 
going to be a well known example of this, but there are many 
others and there's potentially going to be many more. But our 
experience with onshore and offshore is that setting aside of 
huge swaths of land often has unintended negative impacts.
    Third, I would like to thank the Administration for 
embracing green and renewable energy. There can be an 
appropriate mix of extractive industry and green energy, but 
green energy, for example, in rural Alaska is not a replacement 
for commercial development. Also, it's not even a replacement 
for the diesel fuel, for example, in our region that's the 
lifeblood of the smallest villages.
    All you have to do is travel just up the hill to the Cold 
Climate Housing Research Center and look at some marvelous 
successes in solar power and energy conservation. We embrace 
this technology, but we recognize it for what it is.
    Finally, we have issues with respect to the several 
agencies within the Federal Government on education. It's 
difficult to educate them about Alaska Native issues. I think 
that in this Administration we've made great progress on tribal 
consultation, but there still needs to be an awareness of this, 
kind of, braided rope relationship that we have, especially in 
my region between tribes, municipalities and the ANSCA 
Corporations. ANSCA land ownership, resource ownership, 
benefits tribal members. And so, although we are three 
different animals, we represent the same constituents and we 
are braided together like strands of a rope.
    The Administration appears not to understand the value of 
resource development to municipalities and tribal members. 
These are our shareholders. We were created by Congress and are 
the largest private landowners in this state, yet our ownership 
is sometimes disregarded or it's discounted as if our charge is 
irrelevant to the contribution to the quality of life for the 
people who we serve.
    Senator Murkowski and other Committee members, as you look 
to development and national energy policy, please remember that 
Alaska is massive for domestic energy production. It's also our 
home.
    ASRC appreciates all of your efforts to pursue federal 
legislation that would address obstacles to sustainable oil and 
gas development. We also appreciate your steadfast commitment 
to the challenging issues before us in federal management, land 
management, regulations and policies. These have left an 
uncertainty for developers in this state. ASRC is poised to 
assist you as you look for proper solutions for these issues.
    Thank you.
    [The prepared statement of Mr. Glenn follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.007
    
    [GRAPHIC] [TIFF OMITTED] T1970A.008
    
    [GRAPHIC] [TIFF OMITTED] T1970A.009
    
    [GRAPHIC] [TIFF OMITTED] T1970A.010
    
    [GRAPHIC] [TIFF OMITTED] T1970A.011
    
    [GRAPHIC] [TIFF OMITTED] T1970A.012
    
    [GRAPHIC] [TIFF OMITTED] T1970A.013
    
    [GRAPHIC] [TIFF OMITTED] T1970A.014
    
    [GRAPHIC] [TIFF OMITTED] T1970A.015
    
    The Chairman. Thank you, Richard, we appreciate it.
    The last member on the panel is Mr. Joe Marushack, welcome.

  STATEMENT OF JOE MARUSHACK, PRESIDENT, CONOCOPHILLIPS ALASKA

    Mr. Marushack. Thank you, Senator.
    In the interest of time I'm going to start about halfway 
through my written testimony and focus on the federal 
permitting challenges.
    Exploration and development in the Arctic, and particularly 
in Alaska, has its own special set of requirements. Because of 
the nature of the land, the tundra, the exploration wells built 
outside of existing infrastructure are drilled in the winter 
using ice roads and ice pads when the tundra is frozen. The 
ice-based infrastructure melts in the summer and leaves no 
marks; however, this reduces the amount of time available to 
drill to about three months of the year.
    When it comes to developing an exploration discovery the 
desire to minimize the development footprint requires that we 
process production from centralized facilities. It requires 
that we drill wells from central pads using expensive, extended 
reach drills. All this leads to costly development and longer 
time frames for exploration development than would be for land 
based outside the Arctic.
    There are a number of challenging regulatory issues we 
continue to have with development on federal lands, and I'll 
summarize several of these.
    In order for development, conservation and impact 
mitigation to proceed orderly in NPRA, agency decisions must be 
predictable and reasonably durable. Predictability is essential 
for developers, residents, investors, the State of Alaska, 
North Slope Borough, Alaska Native Corps, the tribes and 
villages on the North Slope.
    Since we first began exploring in NPRA in 2000 we've seen 
steadily increasing and evolving requirements from the Federal 
Government. At this juncture in time we have over 250 federal 
requirements for new developments that must be addressed in 
NPRA. Again, time prevents me from reading this list to you, 
but I've included it in an attachment.
    The steady increase in standards and mitigation measures is 
complicated by the agencies revisiting previous work, decisions 
and compromises. For example, an environmental impact statement 
that was performed in 2004 explicitly evaluated and approved 
roads proposed for planned development of CD-5, GMT-1, Mooses 
Tooth One, Mooses Tooth Two. However, as permitting for each of 
these projects has proceeded we face additional requirements 
that were not part of the original project scope, adding time 
to the schedule, increasing costs and creating uncertainty 
regarding the viability of development.
    It is our belief that the current standards and mitigation 
measures that we follow in NPRA more than adequately address 
concerns about potential impacts to the environment and 
subsistence hunting. We recognize the legitimacy of those 
concerns, but we feel that they have been well considered and 
properly addressed.
    One federal issue that threatens even more uncertainty is 
the November 2015 White House Memorandum calling for the 
Departments of Defense, Interior and Agriculture, the 
Environmental Protection Agency and the National Oceanic and 
Atmospheric Administration and all the Bureaus and Agencies 
within them, for example, the Bureau of Land Management, Bureau 
of Ocean Energy Management, Bureau of Safety and Environmental 
Enforcement, National Park Service, National Marine Fisheries 
and Fish and Wildlife Services, to develop new impact avoidance 
and mitigation standards in each of the agency's areas of 
jurisdiction.
    This new policy has the potential to upset the balance of 
protection and development that Congress has directed in the 
laws under which the agencies operate. From what we have been 
able to assess the basis for estimating impacts and associated 
mitigation measures are not well defined, not predictable and 
do not allow us to estimate the effect that it may have on the 
overall economics of oil and gas development. As the agencies 
provide detail around their plans, assuming there's a public 
process, we'll be submitting comments regarding their concerns.
    In closing, ConocoPhillips, through its heritage companies 
ARCO Alaska, Phillips Petroleum and Conoco, has been an active 
explorer and developer on both federal and state lands in 
Alaska, both onshore and offshore, from Cook Inlet to the North 
Slope, for over 50 years. We have a track record of 
environmental and social responsibility operations. Through our 
investments and those of our other oil and gas companies we've 
generated jobs for Alaskans and created wealth for the State of 
Alaska, Alaska communities, Native regional and village 
corporations and their shareholders.
    While we're still very active on state lands, federal lands 
represent new opportunities to continue supporting the Alaska 
economy. It's our intent to work with the Federal Government, 
residents of the Slope, the State of Alaska and other 
stakeholders to address concerns such that there is a 
reasonable, regulatory framework guiding oil and gas 
development on North Slope lands.
    Thank you, Senator.
    [The prepared statement of Mr. Marushack follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.016
    
    [GRAPHIC] [TIFF OMITTED] T1970A.017
    
    [GRAPHIC] [TIFF OMITTED] T1970A.018
    
    [GRAPHIC] [TIFF OMITTED] T1970A.019
    
    [GRAPHIC] [TIFF OMITTED] T1970A.020
    
    [GRAPHIC] [TIFF OMITTED] T1970A.021
    
    [GRAPHIC] [TIFF OMITTED] T1970A.022
    
    [GRAPHIC] [TIFF OMITTED] T1970A.023
    
    [GRAPHIC] [TIFF OMITTED] T1970A.024
    
    [GRAPHIC] [TIFF OMITTED] T1970A.025
    
    [GRAPHIC] [TIFF OMITTED] T1970A.026
    
    [GRAPHIC] [TIFF OMITTED] T1970A.027
    
    [GRAPHIC] [TIFF OMITTED] T1970A.028
    
    The Chairman. Thank you, Joe.
    Thank you all for your testimony.
    Let me ask, probably a general question, to each of you to 
begin the conversation.
    Richard, you used the words ``Alaska is an asset.'' 
``Alaska is our home.'' When we think about Alaska as the place 
that we live and work and raise our families, it is important 
to recognize that we have considerable assets associated with 
the land. It is how we access those assets and do so in a way 
that provides for jobs, provides for sustainable economy, but 
also accesses them in a way that ensures that we are good 
environmental stewards for the land. We want to raise our 
families in a place as beautiful as your family has lived for 
generations, and generations and generations, and we want to be 
able to do so going into the future.
    From a broader perspective, given the testimony that each 
of you have presented here today, what more can we be doing, 
should we be doing, to ensure that Alaskans are able to achieve 
their fullest potential with the resources that we have 
available to us in our state?
    Joe, you have mentioned from Conoco's perspective, 
regulations hold us back. I think you have suggested, Michelle, 
that access is a consideration. I do not care who starts off 
the conversation, but can you each speak to the areas that you 
feel that Alaska's potential in accessing our resources is 
being held back in some way by the Federal Government so that 
we can know better how to help us? I will throw that out to 
whoever would like to begin.
    Mr. Marushack. Go ahead, Richard.
    Mr. Glenn. I will give it a shot.
    The Chairman. Okay.
    Mr. Glenn. I think there are two areas that your question 
leads me: that has to do with land ownership and federal 
leasing, leasing of federal lands, both the on and offshore. 
And also that the price of delay, even an approved project, if 
it takes multiple years to start from exploration to 
production, there's a price associated with that.
    So let us start with that one first. As you know in Alaska 
most of the resource wells have been produced from state-owned 
lands, but there is some, and Michelle alluded to it, there is 
some production now coming from Native-owned lands and there is 
Native-owned lands now fighting being developed in the National 
Petroleum Reserve.
    My point is if the resource development is of value to 
Native people and then that project is delayed over multiple 
years, that represents a real financial impact to Native 
people. We have distributed from the portion of production that 
is owned by Alaska's Native people, from the Alpine and 
satellite fields, we've distributed more than $1 billion to all 
of the regional corporations throughout the state. And yet if 
there is some portion of our resource that is made unavailable 
to us over a period of years, that has a real, measureable, 
financial impact to all of Alaska's Native Regional 
Corporations. So that is the first one, there is a cost 
associated with delay.
    The second one is that the terms for leasing might be 
reconsidered. The federal leasing terms should consider a 
revamp that somehow protects the terms of the leases during 
this lengthy exploration to production phase. Given our 
setting, it is remote, it is Arctic, it is sensitive. There are 
all kinds of reasons for why it should take a measureable, well 
thought out process from exploration to development. My point 
is get rid of the excessive delay and reconsider the terms for 
federal leasing that somehow takes into account the multiyear 
phases it must go even at its most efficient pace from 
exploration to production.
    The Chairman. Thank you.
    Joe.
    Mr. Marushack. Sure, sure.
    So I picked up on a point when you asked your question, 
Senator. It is not the regulations that are so problematic, it 
is the interpretation and the unpredictability in how those 
regulations are going to be interpreted sometimes.
    We believe that the regulatory agencies should be following 
their statutory mandates not only to protect the environment 
and subsistence but also by a reasonable and balanced path to 
ensure transparency and predictability in those regulations and 
to avoid overlap among the agencies regarding lands that are 
leased well in advance of development.
    As Richard mentioned, one of the things that we think makes 
some sense as well is for areas that have been taken off limits 
but ought to be reconsidered. We think that there are some good 
opportunities for exploration and development. It is kind of 
amazing that I think that the Native Corporations and the 
people of the North and people developing these resources can 
come to an agreement on how that ought to be developed, but 
we're precluded by doing that by some of the federal mandates.
    The Chairman. Others?
    Admiral Barrett. Senator, a couple of thoughts specifically 
on regulations.
    I have been on both sides of this fence both with the Coast 
Guard, the Pipeline Safety Agency, USDOT and now with the 
pipeline operator. I think fundamentally some of my background 
at the Coast Guard, 35 years ago, it is a different philosophy 
or approach to regulating an industry to a certain extent, but 
it is complex. You cannot dumb it down.
    But always in the Coast Guard the goal was never to stop 
ships from sailing. The goal was not to tie up the ships. The 
goal was to have them sail safely because there is an 
acknowledgement and a recognition that maritime commerce is 
important to the economy, the health, the security and the 
well-being of this nation.
    I do not see that relative to oil and gas. I think a much 
more collaborative relationship between the agencies that 
implement statutes and write regulations and less prescriptive 
one, but fundamentally collaborative. I feel strongly some of 
our best ideas that work, we have got 800 employees, another 
600 baseline contractors, thousands of others. They show up 
every day trying to do a good job at what they do. We are not 
the enemy of anybody.
    I think working with us and with companies is somehow 
perceived as a conflict. It is very much a command and control 
regime that is going to find you doing something wrong.
    In the long-term I think that gets you less safety, less 
reliable performance, more environmental risk than just an 
upfront, open, collaborative approach to what a regulation 
might mean to track where those go and then follow it. I just 
think, I don't see that. So I think that is an opportunity to 
shape the regulatory regimes in that direction.
    The Chairman. Okay.
    Michelle, do you have anything to add?
    Ms. Anderson. Just real briefly.
    You know, development in our area, just like it is anywhere 
else in terms of the federal delays or barriers that you are 
asking about, it is very hard. It is very challenging to work 
with individuals or people who are interpreting regulations who 
have never even been to our area, who don't understand the lay 
of the land, if you will. So we do a lot of education of these 
individuals and agencies when they have already scoped out a 
project or an area and then coming back to us, the people that 
live there, and trying to make their project fit where we are 
at.
    So, just more involvement of local people, landowners, from 
the beginning verses bringing us in at the end, I think, would 
be helpful.
    The Chairman. Well that, kind of, ties into a follow on 
question that I wanted to ask which is how we, as Alaskans, 
again who are choosing to live and work and raise our families 
here, how we convey to the rest of the country, and often to 
the rest of the world, that what we seek to do here is to 
develop our state's resources and assets but that we do so with 
an eye towards stewardship.
    We oftentimes do not get very much credit for the fact that 
we do have the kind of safety record that you have cited, 
Admiral Barrett; that we do have a level of care for production 
up on the North Slope, for instance, the likes of which you do 
not see anywhere else in the world in terms of the standards 
that are adhered to.
    The question that I would ask, and I will direct it 
initially both to you, Richard, and to you, Michelle, is how we 
can keep our minds straight on development and environmental 
protection? I will take you to a quote the President made when 
he was up in the state in September. Governor Walker had been 
urging that he look to expand access for oil and gas 
development, and the President said, and I am quoting here. 
``One of the ironies when you're up in Alaska, and I mean this 
sincerely, it shows you that everybody can be two minds about 
this. I have some people saying we ought to protect this beauty 
and scenic areas and make sure that no one, nobody, is 
polluting it. And then, oh and by the way, let's get going on 
some oil drilling at the same time.''
    I am one of those people, I guess, in the ironic category 
because I do support new access and I do support new 
development and I do not see the conflict in our ability to 
protect our lands and to make it available, not only for this 
generation, but generations going forward.
    How do we do a better job? Michelle, you mentioned 
education. Richard, you have been in the, perhaps not so 
enviable, position of being invited back to Washington, DC on 
numerous occasions to testify. How can we do more? How can we 
convey the message that it is not ironic? That we want to help 
our people and at the same time we can care for our lands?
    Mr. Glenn. Yeah, welcome to our world, right?
    So, the issue at home is stark. I mean we ask ourselves who 
is going to--our grandchildren, what kind of school would they 
go to? Will there be reliable power in their communities? How 
will we fund the road maintenance? Even snow blowing and 
ambulance service, things that the rest of the world takes for 
granted are present in each of our communities only because of 
the presence of development in our region.
    So we are open about it. We depend on continued development 
for the survival of our communities. It is great that we have 
the ability to hunt in our region, but we do not have a home to 
come home to if we do not also have development in our region.
    And so, the message or the task becomes how do you convince 
the world that there is something between absolute protection 
like putting a jar over something and never letting anything in 
it and allowing people to live? And the pristine mystique of 
the Arctic will rub off and go away pretty fast when you are in 
survival mode or when your community is in a survival mode.
    The way we have been able to do it at home, I think, is to 
create alignment. That is, we have invested in development in 
our region as an owner, a landowner, and an equity owner. That 
way when there is success for the explorer, there is success 
for our community's residents. If we were just victims of 
development, that is the opposite of the spectrum, the opposite 
end of it where we have no ownership, no participation and we 
are just victims of negative impacts. We looked at that and 
decided that the way to create success in our region is to 
create alignment. The way to create alignment is by investing 
in the only industry that has been around in our region long 
enough to pay taxes.
    We have a bus that fills itself with tourists this time of 
year. They leave Alaska Airlines, they get on a bus, they drive 
around the town, they leave the bus, they go in a hotel, they 
go back on the bus, and then they leave. It is almost full 
every day with three jet flights every day. Yet, even that 
industry can barely supply its own needs as far as tax base.
    So we recognize our dependence on the oil and gas industry 
in our region, and we created alignment by investing in it. We 
think that that is the answer to this we/they syndrome between 
sitting on the inside and sitting on the outside.
    We are blessed in our region that it is big. There is room 
for everything. There is room for everybody.
    If you look at a map of the North Slope and you look at the 
infrastructure of oil and gas pipelines, it depends on the 
width of the ink that they use to draw the map, but you get the 
impression that there is a spider web full of pipelines. If 
instead you get dropped off in the middle of nowhere on 
Alaska's North Slope, you are going to find out that there is a 
lot of open space and you will be thankful for that 
infrastructure when you do eventually come across it. 
[Laughter.]
    So, there is a lot of room in our region.
    The Chairman. Thank you.
    Michelle.
    Ms. Anderson. Thank you for asking. It gives me an 
opportunity to share Ahtna's vision which is our culture unites 
us, our land sustains us, our people are prosperous.
    Our people highly prize our land and our food resources, so 
we are extremely protective over both. We would never 
jeopardize or compromise the future of our people by standing 
for irresponsible land development.
    Our people are born there. They are buried there. That is 
our home. We would take care of it to the very best of our 
abilities and protect it.
    We also, you know, that second line of the vision 
statement, our land sustains us. While it feeds us and provides 
us homes, we also believe that our elders selected those lands 
to take care of us. We are resource rich and we are very 
interested in not only developing those resources, but getting 
our people long-term jobs and careers at home so they do not 
have to leave the area to work in Anchorage, or Fairbanks, or 
wherever, you know. Our lands were selected for a reason, and 
we take very good care of them.
    The Chairman. Admiral Barrett, you mentioned that we are at 
556,000 barrels of oil moving down the pipeline at this moment. 
The capacity is 1.09 million per day that we could see if we 
were to have full capacity in TAPS.
    What would that mean in terms of additional jobs for 
Alaskans and exactly what type of jobs?
    Admiral Barrett. Sure.
    So what it would mean for Alaskans to start with is you 
would have to have the development to fill us up, right? So 
that is thousands of jobs on the exploration and development 
and all the work that goes with it.
    But the types of jobs we have in this industry are 
generally high tech. We have been strong supporters of the 
Alaska Native Science and Engineering Program since its start 
as have some of the other people at this table, ANSEP. We need 
a high quality, high talent workforce. It is engineering heavy 
in the white collar, but it is every skill set. It is 
accounting and it is finance and it is engineering. We are 
almost 40 percent blue collar, alright?
    So this is background American jobs, but they are 
instrument techs. They are mechanical techs. They are 
electricians. They are electrical techs. They are skilled jobs, 
they pay good salaries and they allow people to make a good 
living.
    But fundamentally they are skilled jobs, skilled labor. And 
the people up here that we have working for us and the people 
that train them do a fabulous job and they are very, very good 
at what they do. But it is a skill set whether it is blue 
collar or white collar, and it is all across the board, 
Senator.
    The Chairman. Let me just ask one more question of you, Mr. 
Marushack, and then I think we will move to the next panel.
    Your testimony has spoken, primarily, to Conoco's 
activities there within NPRA, GMT-1 and 2, but Conoco is also a 
lease holder in our continental shelf areas. Have you given 
much thought to a better leasing and regulatory system that 
could be implemented in frontier areas in our OCS?
    Mr. Marushack. Well Senator, yes.
    One thing that has to happen is you have to have lease 
sales on a fairly regular basis. The last one was 2007. The 
next one is 2020. It is extraordinarily difficult to do oil and 
gas development when you have got 13 years in between those 
areas and when so many of the best perspective opportunities 
are taken off the table.
    But that is just to go back also on that to answer your 
question on how we can develop these areas responsibly. Having 
worked all over the world I can tell you that industry's 
ability to protect its license to operate is based on safety 
and environmental performance. In Alaska we are absolutely, I 
am very pleased with the amount of safety and environmental 
performance that we focus on.
    You know, the other thing is our relationship with the 
Native Corporations and the people, the owners of the Slope. 
All over the world this is very, very unique.
    So to come back to your question again then. If we can do 
it in an environmental and safe process and if we have the 
support of the local landowners and people that live up there, 
it feels to me like we ought to have opportunities to develop 
and expand this opportunity on a much more regular basis.
    The Chairman. Last chance, final word from any of the four 
on the panel?
    Mr. Marushack. So could I tell you one----
    The Chairman. Yes.
    Mr. Marushack. That is operating within NPRA.
    NPRA is about the size of the State of Indiana. Our 
developments on CD-5, Mooses Tooth 1, Mooses Tooth 2, are 185 
acres, 0.0008 percent of the acreage up there is what we are 
trying to develop right now.
    The Chairman. 0.000?
    Mr. Marushack. Eight.
    The Chairman. Eight.
    Mr. Marushack. Percent.
    The Chairman. Percent.
    Mr. Marushack. 185 acres over roughly 25 million acres.
    The Chairman. That puts it in context.
    Admiral Barrett.
    Admiral Barrett. You mentioned too about how people can 
understand that we are able to reconcile these apparently 
competing interests.
    I would just ask people to look--I mean I have been up and 
down the pipeline now for five years. I have seen black and 
white bears, caribou, moose, fox, wolves, squirrels, birds, the 
caribou herd in our region is four to five times larger than it 
was before we started development.
    I think our quotes are instinctively conservationist. We 
pay a lot of attention to it. But they even value the 
environment we are in more than anybody else because they live 
in it. And I think if you actually look at the record of the 
pipeline and the development on the Slope, the record stands 
very strong, yet it is hardly even moved.
    The Chairman. I appreciate that.
    Michelle.
    Ms. Anderson. Thank you, Senator.
    I guess my last comment on the subject is come visit us in 
January and not spring when it feels like they should have a 
say in terms of what is vulnerable, a person or a region or the 
agencies that create the regulations that we have to follow. 
Look at our fuel bills. Look at how our people have to make 
choices. I am not just talking about Ahtna people, I am talking 
about people that live in the communities all along the road 
system. We are not Anchorage. We are not Fairbanks or some of 
the larger communities where there are stores and choices and 
jobs. We are there because we want to be there. That is our 
home. We want jobs. We want resource development. We want to be 
able to raise our families there. We do not want any more 
schools closing.
    So I would urge people that, you know, before you make a 
decision for other people, come and live in our situation for a 
little while and see what it is really like. We find it 
beautiful, and I think it would be an absolute tragedy for the 
state if we were to force people to leave their homes to go to 
bigger cities in order to survive. Rural Alaska is beautiful 
and it will continue to remain so, so long as its people are 
there.
    The Chairman. Well put.
    Thank you all.
    Mr. Marushack. Thank you.
    Admiral Barrett. Thank you.
    Mr. Glenn. Thank you.
    Ms. Anderson. Thank you.
    The Chairman. With that we will thank our first panel and 
move to panel number two. [Applause.]
    [Recess.]
    The Chairman. We will reconvene with our second panel.
    Panel number two is composed of Mr. Bill Jeffress, who is a 
Principle Consultant at SRK Consulting. He will be followed by 
Mr. Bronk Jorgensen, who is with the Fortymile Miner's 
Association. Good to have you with us today. Ms. Lorali Simon, 
who is the Vice President for Usibelli Coal Mine, is with us. 
The panel will be rounded out by Mr. J.P. Tangen, who is an 
Attorney at Law here in Fairbanks and a long time consultant 
and knowledgeable person when it comes to our federal land and 
particularly mines. So we appreciate that.
    Again, same kind of contours as far as testimony this 
afternoon. We would ask you to keep your comments to about five 
minutes. Your full written statements will be incorporated as 
part of the record. Once you all have completed your 
statements, we will have a chance for a little bit of back and 
forth with questions.
    With that, Mr. Jeffress, if you would like to lead us off. 
Thank you for being here.

     STATEMENT OF BILL JEFFRESS, PRINCIPAL CONSULTANT, SRK 
                           CONSULTING

    Mr. Jeffress. Thank you, Senator, thanks for the 
opportunity.
    My name is Bill Jeffress. I am the Vice President of Alaska 
Miners Association, a member of the Alaska Minerals Commission 
and Principal Consultant for SRK Consulting here in Alaska. I 
have been involved with research and development for over 40 
years. Because of the vast difference between Alaska and other 
states, federal programs do not always adapt to Alaska even 
though some of those programs may very well meet the needs of 
other states.
    The U.S. Department of Interior agencies, such as Bureau of 
Land Management (BLM), U.S. Fish and Wildlife Service and 
National Parks control over 201,000,000 acres of the total 
365,481,600 left in Alaska. Over 75 percent of the federal land 
in Alaska is closed to mining. That translates into fewer 
opportunities for jobs.
    Federal flexibility and state collaboration to balance 
national policies with local conditions is needed for 
successful resource development. The State of Alaska and Alaska 
resource development industries have a long history of 
successful collaboration with federal and local jurisdictions. 
Unfortunately, federal land management agencies under this 
Administration are developing guidelines and policies without 
input from the State of Alaska or resource industries.
    The most alarming of these issues is that recently BLM 
resource management plans for Eastern Alaska, Bering Sea, 
Western Interior, Central Yukon planning areas include massive 
``areas of critical environmental concerns,'' the ACECs you 
spoke of earlier. In addition, the natural research study 
areas, there are no timelines for completion of studies of 
these areas prior to lands being available for any type of 
resource development, if ever.
    BLM has implemented draft mitigation policies for a project 
on the North Slope and BLM's Solicitors Office has rolled out a 
new interpretation of 43 CFR 3809 regulatory requirements.
    BLM, last Tuesday, proposed new reclamation standards for 
placer miners. BLM has not afforded any opportunities for 
industry or affected state agencies to participate in the 
development of these new requirements or policies. Alaska 
placer miners, whether they are large or just the mom and pop 
operations, are now required to prepare extensive supplemental 
plans and baseline documents. The new reclamation standards for 
Alaska placer miners were developed in the BLM bubble without 
any consultation of State of Alaska resource agencies that have 
decades of reclamation and habitat enhancement experience. 
Collaboration with resource industries in the State of Alaska 
resource agencies on lessons learned is nonexistent. The end 
result, and some would say the design result, is the 
elimination of all placer mining on BLM land. So much for the 
multiple use concept that was the mantra when I was in college.
    To further add to the frustration during this downturn in 
the economy, on November 3rd, 2015, President Obama's 
Memorandum on Mitigation has initiated another round of 
government bureaucratic uncertainty for the resource 
development industry and a job killer. This Memorandum directs 
the Department of Interior, along with other government 
entities, to develop mitigation plans based on avoid, minimize 
and mitigate, a concept that has been administered by the U.S. 
Army Corps of Engineers for decades.
    If you will indulge me, I'd like to step back in time to 
the early 1990s. Over 48 percent of Alaska's surface area, 
175,000,000 acres, is wetlands which is regulated by the Army 
Corps of Engineers. Under President Bill Clinton's directive 
and some political persuasion from then Senator Ted Stevens in 
the form of the Alaska One Percent Rule, the Corps of 
Engineers, EPA, U.S. Fish and Wildlife Service and National 
Marine Fisheries initiated a two-year process that resulted in 
the 1994 Alaska Wetlands Initiative.
    This document, signed by all parties on May 13th, 1994, 
recognized the unique aspects of Alaska, the limited 
opportunities for mitigation and the need for additional 
flexibility in the Clean Water Act 404 permitting process. Even 
prior to President Obama's Memorandum on Mitigation, the Corps 
of Engineers, through agency consultation during the review and 
permitting process, considered mitigation options offered by 
U.S. Fish and Wildlife Service, EPA, NMFS and BLM.
    As a lead agency on most federal permitting activities in 
Alaska, the Corps of Engineers makes the final determination if 
provisions of the Clean Water Act are satisfied by avoidance 
and minimization or if mitigation would be required, what form 
of mitigation will it take such as permittee responsible 
mitigation, in-lieu fees or compensatory mitigation. The Corps 
of Engineers review and permitting process using the 1994 
Wetlands Initiative as one of the tools to incorporate 
flexibility, where appropriate, although not perfect and 
without its own hiccups, has provided industry with some 
certainty.
    The President's Mitigation Memorandum removes that 
certainty and potentially it leaves all developers and 
especially extractive resource industries faced with multiple 
mitigation requirements. These mitigation requirements not only 
are on federal land, but private and Native Corporation land. 
If Alaska is to develop its natural resources for the good of 
its citizens and the nation, this governing by command and 
control must cease. We need to reinitiate collaboration and 
cooperation for the good of the state and the health of the 
nation.
    Thank you very much.
    [The prepared statement of Mr. Jeffress follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.029
    
    [GRAPHIC] [TIFF OMITTED] T1970A.030
    
    [GRAPHIC] [TIFF OMITTED] T1970A.031
    
    The Chairman. Thank you, Bill, appreciate it.
    Mr. Jorgensen, welcome.

    STATEMENT OF BRONK JORGENSEN, FORTYMILE MINING DISTRICT

    Mr. Jorgensen. Thank you.
    I'd like to thank the Committee for letting me testify on 
behalf of the Mining District today. The Fortymile Mining 
District is currently made up of about 100 miners and was 
established on the Fortymile Bar of the Fortymile River on 
March 25, 1898 under the 1866 Mining Act and the 1872 General 
Mining Act, making the District 118 years old this week. The 
District is approximately 6,000 square miles and is the oldest 
and longest standing mining district in the State of Alaska. 
Since 1898 the District has been actively engaged with 
governmental agencies to promote family placer mines and create 
a healthy and vibrant environment for all user groups of the 
Fortymile watershed.
    Placer mining in the Fortymile is a clean process, as it is 
across the state. No acid leeching or other chemicals are used, 
just water and hard work. The overall footprint is minimal to 
the extent that the 1986 Environmental Impact Statement (EIS) 
showed that collectively all placer mining in the Fortymile 
District would have no significant impact.
    The number of acres that the EIS assumed in 1986 would be 
mined by 1996 hasn't even been reached today, and we're 30 
years out. Total, all placer activity in the Fortymile is 
smaller than an Iowa farm. Clearly, gold is a critical part of 
our society, needed in the assembly of vehicles, computers, 
cell phones and all kinds of other necessities. The gold 
produced by our operations is used for these and other items 
without the environmental impact caused by other forms of 
mining.
    All placer mines in the state are currently facing an 
unprecedented obstacle in dealing with regulatory agencies like 
the BLM, EPA, DEC, U.S. Army Corps. In spite of the fact that 
there is no history of any environmental damage done by any 
members of our District, we are inundated by instructional 
memoranda, reinterpretation of regulations and a complex REM 
policy for reclamation. BLM has failed to provide adequate 
funding and staffing for the 3809 mining program but at the 
same time has spent hundreds of thousands on the REM policy. On 
my personal operation, in five years I think I'm on my sixth 
inspector.
    The BLM's use of areas of critical environmental concern 
will close off access and lock up over 700,000 federal acres 
and essentially land-locking thousands or more acres owned by 
Doyon and the State of Alaska in the Fortymile region. This 
will remove any possibility of critical, strategic mineral 
prospecting in the area. The ACECs are also clearly contrary to 
the ``no more clause'' of ANILCA.
    In 2008 the BLM started the scoping process to replace the 
individual resource management plans for the Fortymile Rivers, 
White Mountains and Steese National Conservation Area. The BLM 
has claimed that they are only amending, consolidating and 
updating these resource management plans. This is incorrect. 
BLM is replacing these plans with the proposed Eastern Interior 
Management plan. The current Fortymile Rivers Management Plan 
was required by and was approved by Congress in 1982. The BLM 
does have the ability to update the plan but not replace it as 
stated on BLM's website.
    Sitting in front of me is the old plan, and underneath the 
microphone, the new plan. There is something fundamentally 
wrong with what is happening when you look at these two piles. 
The BLM is treating the Fortymile District as if it were an 
evil entity that needs to be governed with an iron fist.
    Currently in the Fortymile BLM will not allow any new 
mining claims to be staked because of the withdrawals. This is 
in direct conflict with the 1872 Mining Law which gives 
citizens of the country the right to mine and ANILCA 
specifically granted prior existing rights to the users of the 
resource and the rights they have.
    The Fortymile Mining District would like to be positive, 
and what we need to be doing is helping family placer mining 
operations. This will help with the economy and strengthen 
national security. But with the current regulatory scheme it is 
tough to be positive. In essence, this boils down to federal 
overreach that goes against the Statehood Act, ANCSA and 
ANILCA.
    We need to lift the federal land withdrawals so the federal 
ground is once again as it was supposed to be, open to mineral 
staking and prospecting.
    As a multiuse agency, BLM should be helping to develop 
placer mines and access to private, Native and state lands, not 
rolling out hundreds of new pages of regulations, instructional 
memorandas and in-house policy.
    Let's try to work on reducing regulatory paperwork and 
encourage more people to go out and develop small placer 
operations.
    Thank you to the Committee and the Senator for letting us 
testify.
    [The prepared statement of Mr. Jorgensen follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.032
    
    [GRAPHIC] [TIFF OMITTED] T1970A.033
    
    The Chairman. Thank you, Bronk.
    Lorali Simon, welcome.

 STATEMENT OF LORALI SIMON, VICE PRESIDENT, EXTERNAL AFFAIRS, 
                    USIBELLI COAL MINE, INC.

    Ms. Simon. Thank you very much.
    Good afternoon, Chairman Murkowski. I appreciate the 
invitation to come today and discuss Alaska's coal resources 
and how our industry is creating Alaska jobs as well as playing 
a vital role in strengthening our national security.
    Usibelli is celebrating our 73rd year of operation this 
year. We proudly supply 100 percent of the in-state demand to 
six coal-burning power plants, and we have a long history of 
exporting coal on the international market. Today Usibelli 
employs about 108 people. The average wage paid to our 
employees is more than double the average wage in Alaska. 
Usibelli's operations directly provide about 20 percent of 
private sector employment for Healy's year-round residents.
    The McDowell Group produced a report that was based on 2013 
data on the socio-economic impacts of Usibelli Coal Mine. There 
were 640 direct, indirect, induced and coal-fired power plant 
jobs which equated to nearly $49 million in wages. Usibelli 
spent close to $41 million with Alaska businesses and made up 
22 percent of the Alaska railroad corporations freight revenue.
    Coal is Interior Alaska's lowest cost source of energy and 
accounts for nearly one third of electrical energy generation. 
In the absence of Usibelli Coal, energy costs in Interior 
Alaska would be much higher, perhaps 25 percent higher than 
they are today, a cost of approximately $200 million annually.
    Fort Wainwright and Eielson Air Force Base spend about $33 
million a year on coal purchases. If trucked natural gas from 
the North Slope becomes available, the bases could switch to 
natural gas but their energy costs would triple. Let us not 
forget that natural gas is not available to the military today 
nor is it available to Interior Alaska. Military spending is 
estimated to support 30 percent of the Fairbanks' economy. 
Large increases in energy costs could risk maintaining the 
military's presence in the Interior.
    On another note, Senator, we certainly cannot deny the 
reality that unnecessary government regulation is taking its 
toll on our industry. Primarily we are deeply concerned about 
the proposed federal Stream Protection Rule. If this proposed 
rule becomes final, it will likely kill coal development in 
Alaska.
    The Stream Protection Rule represents a complete rewrite of 
the 1977 Surface Coal Mine Control and Reclamation Act which we 
call SMCRA. It is not a simple revision. Congress passed SMCRA, 
yet today we are seeing unelected federal bureaucrats violate 
legislative intent which will kill America's coal industry. The 
proposed Stream Protection Rule is a violation of states' 
rights. It unlawfully seizes the regional discretion granted in 
SMCRA, and it overthrows state primacy.
    Senator, I do not need to tell you how unique the geology 
is on the North Slope verses Southeast Alaska. The Stream 
Protection Rule targets coal mining in Appalachia, yet it is 
being smeared across the entire country all the way to Alaska. 
Alaska was not considered nor consulted in the drafting of the 
proposed rule. No scientific studies relevant to Alaska are 
referenced in the documentation and no public meetings were 
held here. Of greatest concern to us is that we only had 91 
days to review over 3,000 pages of documents, all of which took 
OSM over six years to produce, yet industries, state agencies 
and stakeholders had only 91 days to review.
    In summary, I do not believe that the proposed Stream 
Protection Rule can be fixed enough to be palatable. I believe 
the entire proposed rule should be thrown out and the agency 
should begin again, this time with proper consultation with the 
states.
    Since it is unlikely that the Administration will take such 
action, a very simple solution would be the passage of the 
STREAM Act.
    Madam Chair, Usibelli Coal Mine respectfully requests the 
Committee to pass S. 1458, Senator Coats' bill. This bill will 
require the Secretary of Interior to make publicly available 
all data relied on for new regulations, environmental impact 
statements as well as environmental and economic assessments. 
This bill will also ensure that the Secretary does not 
needlessly duplicate or encroach upon environmental laws under 
the jurisdiction of other agencies.
    The bill will encourage a transparent rulemaking process 
and guarantee that the proposed SPR, Stream Protection Rule, 
does not add needless regulation.
    Thank you for your time today.
    [The prepared statement of Ms. Simon follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.034
    
    [GRAPHIC] [TIFF OMITTED] T1970A.035
    
    [GRAPHIC] [TIFF OMITTED] T1970A.036
    
    [GRAPHIC] [TIFF OMITTED] T1970A.037
    
    [GRAPHIC] [TIFF OMITTED] T1970A.038
    
    The Chairman. Thank you.
    Last we will go to Mr. J.P. Tangen, welcome.

   STATEMENT OF J.P. TANGEN, ATTORNEY AT LAW, ALASKA MINERS 
                          ASSOCIATION

    Mr. Tangen. Thank you, Senator.
    I appear today on behalf of 1,800 members of the Alaska 
Miners Association.
    I believe that it goes without saying that the very 
existence of the State of Alaska is dependent upon the 
development of its abundant natural resources. Many of the 
resources needed for our national security are found in Alaska 
as well. No one can seriously argue that Alaska is not unique 
in many ways, not the least of which is the abundance and 
diversity of its mineral resources that are found from one end 
of the state to the other.
    The Alaska Statutory Trilogy repeatedly has recognized that 
abundance.
    First, the Statehood Act granted to the state 104,000,000 
acres of land selections. This is an area greater in size than 
the entire State of California but justification for such a 
significant grant was that due to our size, remoteness and 
sparse population Alaskans would need vast tracts of resource-
rich land to develop and support its residents.
    Second, the Alaska Native Claims Settlement Act in settling 
long standing land claims afforded indigenous people a 
commercial paradigm for generating cash revenue independent of 
the public treasury. The settlement included 44,000,000 acres 
in land selections which selections frequently were made with 
an eye towards resource development.
    And third, the Alaskan National Interest Lands Conservation 
Act (ANILCA) was adopted to ensure that the distinguished park 
areas, refuges, rivers and representative woodlands were 
afforded unique consideration without adversely impacting 
existing opportunities to develop the resources of the state.
    The Alaska Statutory Trilogy was adopted in the context of 
the respective contemporaneous organic mandates of the four 
major land managing agencies in Alaska. Accordingly, ANILCA, 
for instance, was consented to and adopted based upon the 
practices of the four agencies as they were interpreted in 
1980. Thirty-five years later these agencies have aggressively 
evolved in ways that deny the people of Alaska their expressly 
intended benefits.
    When adopted ANILCA created numerous conservation systems 
which frequently surrounded privately held inholdings and 
allotments which were transected by trails and waterways 
customarily used for access through and across subsumed areas. 
Since passage the National Park Service, Fish and Wildlife 
Service and the U.S. Forest Service have all imposed 
restrictions vitiating the utility of these holdings and access 
routes.
    At this time the Alaska Miners Association is calling for a 
corrective legislative action either in the form of a stand-
alone bill or as amendments to other germane legislation to 
accomplish at least the following goals.
    First, the Organic Acts of the four land management 
agencies need to be amended to harmonize their requirements 
with the Alaska Statutory Trilogy. I refer you to the expressed 
language of the Supreme Court of the United States and the 
Sturgeon v. Frost case which went on at great length to talk 
about how those two groups of statutes should be harmonized.
    Second, as a priority, ANILCA needs to be amended to 
provide a clear, Alaska-specific definition of what constitutes 
a withdrawal in connection with land management plans in 
Alaska.
    Third, the Alaska Land Use Council which was created by 
Title 12 of ANILCA to facilitate coordination between the State 
of Alaska and the four federal land management agencies should/
needs to be reconstituted to ensure that the four land 
management agencies have adequate oversight with regard to 
Alaska-specific land management activities.
    Fourth, public land orders that have been recommended to 
the Secretary for revocation have not been acted on. They 
should be revoked by statutory action now.
    Fifth, RS2477 rights-of-way need to be conveyed to the 
State by statute. RS2477 is self-enacting. It does not require 
any action by the Department of the Interior or by anybody else 
and certainly does not need to be processed through the Four 
Organic Acts, and so those grants should be implemented right 
away.
    The State of Alaska has identified a bunch of those 
RS2477's and those found at A.S. 19.30.400 should be now 
granted by statute including 50 feet on either side of the 
center line description and adequate provisions for adequate 
borrow bits.
    And sixth, the submerged lands in Alaska which belong to 
Alaska according to the Statehood Act should also be recognized 
by statute. We got those submerged lands on account of the 
Statehood Act, but the Department of the Interior has resisted 
the conveyance because of the definition of what constitutes 
navigable waters.
    There has been already some law that's been developed in 
that case on that matter and essentially what definition that's 
been agreed to, at least in one instance, is a body of water 
that would float a raft that contains a 1,000-pound load. 
That's a perfectly good definition, and that ought to be in 
statute. If it can support a 1,000-pound load on water in 
Alaska, it ought to be deemed navigable. Period, end of story.
    Madam Chairman, this concludes my recommendations of the 
Alaska Miners Association at this time. We appreciate the 
opportunity to present these requests to you and stand ready to 
assist in your efforts to ensure that Alaska's mining industry 
remains strong for the benefit of the state and for the 
security of the nation.
    [The prepared statement of Mr. Tangen follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.039
    
    [GRAPHIC] [TIFF OMITTED] T1970A.040
    
    [GRAPHIC] [TIFF OMITTED] T1970A.041
    
    [GRAPHIC] [TIFF OMITTED] T1970A.042
    
    [GRAPHIC] [TIFF OMITTED] T1970A.043
    
    [GRAPHIC] [TIFF OMITTED] T1970A.044
    
    [GRAPHIC] [TIFF OMITTED] T1970A.045
    
    [GRAPHIC] [TIFF OMITTED] T1970A.046
    
    [GRAPHIC] [TIFF OMITTED] T1970A.047
    
    [GRAPHIC] [TIFF OMITTED] T1970A.048
    
    [GRAPHIC] [TIFF OMITTED] T1970A.049
    
    [GRAPHIC] [TIFF OMITTED] T1970A.050
    
    [GRAPHIC] [TIFF OMITTED] T1970A.051
    
    [GRAPHIC] [TIFF OMITTED] T1970A.052
    
    [GRAPHIC] [TIFF OMITTED] T1970A.053
    
    [GRAPHIC] [TIFF OMITTED] T1970A.054
    
    [GRAPHIC] [TIFF OMITTED] T1970A.055
    
    [GRAPHIC] [TIFF OMITTED] T1970A.056
    
    [GRAPHIC] [TIFF OMITTED] T1970A.057
    
    [GRAPHIC] [TIFF OMITTED] T1970A.058
    
    [GRAPHIC] [TIFF OMITTED] T1970A.059
    
    [GRAPHIC] [TIFF OMITTED] T1970A.060
    
    [GRAPHIC] [TIFF OMITTED] T1970A.061
    
    [GRAPHIC] [TIFF OMITTED] T1970A.062
    
    [GRAPHIC] [TIFF OMITTED] T1970A.063
    
    [GRAPHIC] [TIFF OMITTED] T1970A.064
    
    [GRAPHIC] [TIFF OMITTED] T1970A.065
    
    [GRAPHIC] [TIFF OMITTED] T1970A.066
    
    [GRAPHIC] [TIFF OMITTED] T1970A.067
    
    [GRAPHIC] [TIFF OMITTED] T1970A.068
    
    [GRAPHIC] [TIFF OMITTED] T1970A.069
    
    [GRAPHIC] [TIFF OMITTED] T1970A.070
    
    [GRAPHIC] [TIFF OMITTED] T1970A.071
    
    [GRAPHIC] [TIFF OMITTED] T1970A.072
    
    [GRAPHIC] [TIFF OMITTED] T1970A.073
    
    [GRAPHIC] [TIFF OMITTED] T1970A.074
    
    [GRAPHIC] [TIFF OMITTED] T1970A.075
    
    [GRAPHIC] [TIFF OMITTED] T1970A.076
    
    [GRAPHIC] [TIFF OMITTED] T1970A.077
    
    [GRAPHIC] [TIFF OMITTED] T1970A.078
    
    [GRAPHIC] [TIFF OMITTED] T1970A.079
    
    [GRAPHIC] [TIFF OMITTED] T1970A.080
    
    [GRAPHIC] [TIFF OMITTED] T1970A.081
    
    [GRAPHIC] [TIFF OMITTED] T1970A.082
    
    [GRAPHIC] [TIFF OMITTED] T1970A.083
    
    [GRAPHIC] [TIFF OMITTED] T1970A.084
    
    [GRAPHIC] [TIFF OMITTED] T1970A.085
    
    [GRAPHIC] [TIFF OMITTED] T1970A.086
    
    [GRAPHIC] [TIFF OMITTED] T1970A.087
    
    [GRAPHIC] [TIFF OMITTED] T1970A.088
    
    [GRAPHIC] [TIFF OMITTED] T1970A.089
    
    [GRAPHIC] [TIFF OMITTED] T1970A.090
    
    [GRAPHIC] [TIFF OMITTED] T1970A.091
    
    [GRAPHIC] [TIFF OMITTED] T1970A.092
    
    [GRAPHIC] [TIFF OMITTED] T1970A.093
    
    [GRAPHIC] [TIFF OMITTED] T1970A.094
    
    [GRAPHIC] [TIFF OMITTED] T1970A.095
    
    [GRAPHIC] [TIFF OMITTED] T1970A.096
    
    [GRAPHIC] [TIFF OMITTED] T1970A.097
    
    [GRAPHIC] [TIFF OMITTED] T1970A.098
    
    [GRAPHIC] [TIFF OMITTED] T1970A.099
    
    [GRAPHIC] [TIFF OMITTED] T1970A.100
    
    [GRAPHIC] [TIFF OMITTED] T1970A.101
    
    [GRAPHIC] [TIFF OMITTED] T1970A.102
    
    [GRAPHIC] [TIFF OMITTED] T1970A.103
    
    [GRAPHIC] [TIFF OMITTED] T1970A.104
    
    [GRAPHIC] [TIFF OMITTED] T1970A.105
    
    [GRAPHIC] [TIFF OMITTED] T1970A.106
    
    [GRAPHIC] [TIFF OMITTED] T1970A.107
    
    [GRAPHIC] [TIFF OMITTED] T1970A.108
    
    [GRAPHIC] [TIFF OMITTED] T1970A.109
    
    [GRAPHIC] [TIFF OMITTED] T1970A.110
    
    [GRAPHIC] [TIFF OMITTED] T1970A.111
    
    [GRAPHIC] [TIFF OMITTED] T1970A.112
    
    [GRAPHIC] [TIFF OMITTED] T1970A.113
    
    [GRAPHIC] [TIFF OMITTED] T1970A.114
    
    [GRAPHIC] [TIFF OMITTED] T1970A.115
    
    [GRAPHIC] [TIFF OMITTED] T1970A.116
    
    [GRAPHIC] [TIFF OMITTED] T1970A.117
    
    [GRAPHIC] [TIFF OMITTED] T1970A.118
    
    [GRAPHIC] [TIFF OMITTED] T1970A.119
    
    [GRAPHIC] [TIFF OMITTED] T1970A.120
    
    [GRAPHIC] [TIFF OMITTED] T1970A.121
    
    [GRAPHIC] [TIFF OMITTED] T1970A.122
    
    [GRAPHIC] [TIFF OMITTED] T1970A.123
    
    [GRAPHIC] [TIFF OMITTED] T1970A.124
    
    [GRAPHIC] [TIFF OMITTED] T1970A.125
    
    [GRAPHIC] [TIFF OMITTED] T1970A.126
    
    [GRAPHIC] [TIFF OMITTED] T1970A.127
    
    [GRAPHIC] [TIFF OMITTED] T1970A.128
    
    [GRAPHIC] [TIFF OMITTED] T1970A.129
    
    [GRAPHIC] [TIFF OMITTED] T1970A.130
    
    [GRAPHIC] [TIFF OMITTED] T1970A.131
    
    [GRAPHIC] [TIFF OMITTED] T1970A.132
    
    [GRAPHIC] [TIFF OMITTED] T1970A.133
    
    [GRAPHIC] [TIFF OMITTED] T1970A.134
    
    [GRAPHIC] [TIFF OMITTED] T1970A.135
    
    [GRAPHIC] [TIFF OMITTED] T1970A.136
    
    [GRAPHIC] [TIFF OMITTED] T1970A.137
    
    [GRAPHIC] [TIFF OMITTED] T1970A.138
    
    [GRAPHIC] [TIFF OMITTED] T1970A.139
    
    [GRAPHIC] [TIFF OMITTED] T1970A.140
    
    [GRAPHIC] [TIFF OMITTED] T1970A.141
    
    [GRAPHIC] [TIFF OMITTED] T1970A.142
    
    [GRAPHIC] [TIFF OMITTED] T1970A.143
    
    [GRAPHIC] [TIFF OMITTED] T1970A.144
    
    [GRAPHIC] [TIFF OMITTED] T1970A.145
    
    [GRAPHIC] [TIFF OMITTED] T1970A.146
    
    [GRAPHIC] [TIFF OMITTED] T1970A.147
    
    [GRAPHIC] [TIFF OMITTED] T1970A.148
    
    [GRAPHIC] [TIFF OMITTED] T1970A.149
    
    [GRAPHIC] [TIFF OMITTED] T1970A.150
    
    [GRAPHIC] [TIFF OMITTED] T1970A.151
    
    [GRAPHIC] [TIFF OMITTED] T1970A.152
    
    [GRAPHIC] [TIFF OMITTED] T1970A.153
    
    [GRAPHIC] [TIFF OMITTED] T1970A.154
    
    [GRAPHIC] [TIFF OMITTED] T1970A.155
    
    [GRAPHIC] [TIFF OMITTED] T1970A.156
    
    [GRAPHIC] [TIFF OMITTED] T1970A.157
    
    [GRAPHIC] [TIFF OMITTED] T1970A.158
    
    [GRAPHIC] [TIFF OMITTED] T1970A.159
    
    [GRAPHIC] [TIFF OMITTED] T1970A.160
    
    [GRAPHIC] [TIFF OMITTED] T1970A.161
    
    [GRAPHIC] [TIFF OMITTED] T1970A.162
    
    [GRAPHIC] [TIFF OMITTED] T1970A.163
    
    [GRAPHIC] [TIFF OMITTED] T1970A.164
    
    [GRAPHIC] [TIFF OMITTED] T1970A.165
    
    [GRAPHIC] [TIFF OMITTED] T1970A.166
    
    [GRAPHIC] [TIFF OMITTED] T1970A.167
    
    [GRAPHIC] [TIFF OMITTED] T1970A.168
    
    [GRAPHIC] [TIFF OMITTED] T1970A.169
    
    [GRAPHIC] [TIFF OMITTED] T1970A.170
    
    [GRAPHIC] [TIFF OMITTED] T1970A.171
    
    [GRAPHIC] [TIFF OMITTED] T1970A.172
    
    [GRAPHIC] [TIFF OMITTED] T1970A.173
    
    [GRAPHIC] [TIFF OMITTED] T1970A.174
    
    [GRAPHIC] [TIFF OMITTED] T1970A.175
    
    [GRAPHIC] [TIFF OMITTED] T1970A.176
    
    [GRAPHIC] [TIFF OMITTED] T1970A.177
    
    [GRAPHIC] [TIFF OMITTED] T1970A.178
    
    [GRAPHIC] [TIFF OMITTED] T1970A.179
    
    [GRAPHIC] [TIFF OMITTED] T1970A.180
    
    [GRAPHIC] [TIFF OMITTED] T1970A.181
    
    [GRAPHIC] [TIFF OMITTED] T1970A.182
    
    [GRAPHIC] [TIFF OMITTED] T1970A.183
    
    [GRAPHIC] [TIFF OMITTED] T1970A.184
    
    [GRAPHIC] [TIFF OMITTED] T1970A.185
    
    [GRAPHIC] [TIFF OMITTED] T1970A.186
    
    [GRAPHIC] [TIFF OMITTED] T1970A.187
    
    [GRAPHIC] [TIFF OMITTED] T1970A.188
    
    [GRAPHIC] [TIFF OMITTED] T1970A.189
    
    [GRAPHIC] [TIFF OMITTED] T1970A.190
    
    [GRAPHIC] [TIFF OMITTED] T1970A.191
    
    [GRAPHIC] [TIFF OMITTED] T1970A.192
    
    [GRAPHIC] [TIFF OMITTED] T1970A.193
    
    [GRAPHIC] [TIFF OMITTED] T1970A.194
    
    [GRAPHIC] [TIFF OMITTED] T1970A.195
    
    [GRAPHIC] [TIFF OMITTED] T1970A.196
    
    [GRAPHIC] [TIFF OMITTED] T1970A.197
    
    [GRAPHIC] [TIFF OMITTED] T1970A.198
    
    [GRAPHIC] [TIFF OMITTED] T1970A.199
    
    [GRAPHIC] [TIFF OMITTED] T1970A.200
    
    [GRAPHIC] [TIFF OMITTED] T1970A.201
    
    [GRAPHIC] [TIFF OMITTED] T1970A.202
    
    [GRAPHIC] [TIFF OMITTED] T1970A.203
    
    [GRAPHIC] [TIFF OMITTED] T1970A.204
    
    [GRAPHIC] [TIFF OMITTED] T1970A.205
    
    [GRAPHIC] [TIFF OMITTED] T1970A.206
    
    [GRAPHIC] [TIFF OMITTED] T1970A.207
    
    [GRAPHIC] [TIFF OMITTED] T1970A.208
    
    [GRAPHIC] [TIFF OMITTED] T1970A.209
    
    [GRAPHIC] [TIFF OMITTED] T1970A.210
    
    [GRAPHIC] [TIFF OMITTED] T1970A.211
    
    [GRAPHIC] [TIFF OMITTED] T1970A.212
    
    [GRAPHIC] [TIFF OMITTED] T1970A.213
    
    [GRAPHIC] [TIFF OMITTED] T1970A.214
    
    [GRAPHIC] [TIFF OMITTED] T1970A.215
    
    [GRAPHIC] [TIFF OMITTED] T1970A.216
    
    [GRAPHIC] [TIFF OMITTED] T1970A.217
    
    [GRAPHIC] [TIFF OMITTED] T1970A.218
    
    [GRAPHIC] [TIFF OMITTED] T1970A.219
    
    [GRAPHIC] [TIFF OMITTED] T1970A.220
    
    [GRAPHIC] [TIFF OMITTED] T1970A.221
    
    [GRAPHIC] [TIFF OMITTED] T1970A.222
    
    [GRAPHIC] [TIFF OMITTED] T1970A.223
    
    [GRAPHIC] [TIFF OMITTED] T1970A.224
    
    The Chairman. Thank you, Mr. Tangen. I appreciate the very 
concrete proposals here, and they will be a springboard for our 
conversation here.
    To the last panel I asked a general question--areas that we 
might look to that are currently holding us back as Alaskans in 
accessing our resources. That panel was focused on oil and gas 
opportunities and access to our lands.
    We are now looking at mining and recognizing the amazing 
potential that we have in Alaska for the elements that are 
buried here. While we have a lot of focus on coal coming out of 
Usibelli and gold coming out the Fortymile District, our 
reality is that here in Alaska our mineral resources are 
extraordinary and world-class.
    While we think about the vulnerability that we had as a 
nation when we were so heavily reliant on imports for oil 
coming in from nations that did not really like us and we 
always talked about that great vulnerability, that has changed 
dramatically as we have figured out how to access more of our 
oil and natural gas potential. But our reality is that when it 
comes to our minerals we are moving in the same direction that 
we were with oil and natural gas being more and more reliant on 
others for elements that are necessary and critical to our 
daily lives. I am wandering around with a smart phone as are 
you. Any one of us that want to support and move out on 
renewable energy sources, if you are interested in more wind 
turbines, you have got to have those minerals that go into the 
component pieces of that wind energy turbine.
    So focusing on minerals and mining, I think, is not only 
important from a jobs and access to resources perspective, but 
it is also important from that security perspective. That was, 
I think, your final line, Mr. Tangen.
    So the question to each of you. In addition to what you 
have already mentioned, concerns about the mitigation proposal, 
concerns about the stream buffer rule, concerns about what we 
are seeing with ACECs and these, kind of, pseudo withdrawals, 
how can we be doing more to allow Alaska the opportunity to 
achieve its full potential when accessing our mineral 
resources?
    It was Mr. Marushack who said, ``It's not so much the 
regulations, it's the interpretation and the unpredictability 
of the regulations.'' Do you agree with that or is it the 
regulations? So if we can just start the conversation off this 
way, and Mr. Jeffress we will begin with you.
    Mr. Jeffress. I think Joe is absolutely correct on this. 
One of the things we have seen is the regulated industry can 
adapt to the regulations, but it's this ever-changing re-
interpretation.
    One of the biggest issues is the fact that objectivity in 
the regulatory agencies is a thing of the past. We have this 
subjective climate where individual biologists can nominate 
ACECs and the group that reviews that nomination area peers 
within the agencies. I mean, there's other criteria on the 
Corps of Engineers, not to pick on them, but with some of the 
other cooperating agencies, U.S. Fish and Wildlife Service, 
National Marine Fisheries, the objectivity is a thing of the 
past. It is very frustrating because I came to Alaska to permit 
the Fort Knox mine, and it was ten years from discovery to 
production. That is a thing of the past right now too, and a 
lot of it is not because the regulations have changed. It is 
because the interpretation of those regulations have changed.
    The Chairman. Bronk, do you agree with that?
    Mr. Jorgensen. I would agree with that when we just look at 
these two piles. The old ones and what is being proposed, 
especially from a small operation. When you have big companies 
saying they cannot keep up how is a family operation supposed 
to keep up with reading this?
    The Chairman. Can you speak to that a moment because in 
your written testimony you move to the one-size-fits-all and it 
doesn't make a difference if it is a mom-and-pop placer miner 
operation on the Fortymile or whether it is a large-scale 
mining effort. It basically is a one-size-fits-all approach.
    Mr. Jorgensen. Correct, and it is also all-50-states-
approach-fits-all.
    I think the Sturgeon case made a good point that Alaska is 
unique and different. And you know, ANILCA was supposed to help 
us with that.
    There is also a law called the Small Business Regulatory 
Enforcement Fairness Act which agencies are supposed to look at 
how these regulations will affect small operators compared to 
big operators. For the most part that's not being done, but it 
is required. So they need to be looking at both sides, but they 
are not.
    When you look at federal mining claims in Alaska in the 
Fortymile since withdrawals have taken place, in the Fortymile 
there have been no open stakes. At the time of withdrawal all 
valid claims that had discovery were valid and could be mined. 
Now BLM, if you want to change your plan or go mine a claim 
that does not have an old plan, they are going to require you 
to do a mineral validity exam, about $60,000 a claim. And if 
they do not deem that there is enough mineral there, by their 
opinion, they are going to take it away and you lose the claim. 
And that is wrong.
    You know, when the withdrawals took place in the Scenic 
River corridors, they went around existing valid claims but BLM 
has blanketed over. So the expense--the government can contest 
the claim if they do not believe it is valid but they have to 
pay for it, not the individual miner.
    This is becoming a big issue with reclamation also. Our 
plans, most plans, have an acreage limit. You mine some ground. 
You keep going up the creek. You reclaim the background. If BLM 
will not sign off on your reclamation you eventually run out of 
acres and you are out of business. You're going to have to wait 
until, in essence, the willows grow.
    If you look at creeks that have been mined you can see that 
stuff is going to grow. You can see that it is going to happen. 
But BLM, at this point, is developing this new REM policy. They 
spent a bunch of money on Jack Wade Creek developing it, and 
this is not regulation, this is just in-house policy that is 
come about with instructional memoranda. A few weeks ago they 
just released it. Now they are doing re-vegetation standards 
also.
    The Chairman. So it is not just the regulation, it is not 
just statute, it is guidance, it is guidelines that effectively 
come up and----
    Mr. Jorgensen. Correct.
    The Chairman. Grab you from behind.
    Mr. Jorgensen. The way we see it is BLM employees have to 
follow those policies. It isn't the law. We do not have to 
follow it, yet that is the policy so they will not sign off on 
reclamation work.
    When I asked for reclamation on Franklin Gulch to be signed 
off on it took two years for a response. Part was granted, part 
was not, and there is no definite time period. There is 
nothing.
    BLM stated that the Wade Creek Demonstration Project would 
not be used as a policy and a standard. Yesterday I was given a 
decision BLM issued on some other reclamation for another miner 
in the Fortymile that specifically referenced the Wade Creek 
reclamation job as to how it should be done.
    The Chairman. Yes, they told us it was not going to be used 
that way.
    Let me ask you, Lorali, you are coming from a company that 
is 73, close to 75 years old, an operation of bigger mining, 
but with the same set of concerns when it comes to the 
interpretation of the regulations. You have also cited very 
specifically that the Stream Protection Rule is a rule that 
would effectively wipe out Usibelli's operation of mining in 
Alaska. I think those were your words.
    Ms. Simon. Yeah, truly it's a mess out there, and I mean 
the federal regulatory world.
    It is true that in order for any of us to do our jobs we 
need a stable regulatory environment. We just want to know what 
the rules are so that we can play by the rules. But the problem 
is that you have Congress who enacts legislation and then you 
have these agencies who are, in essence, rewriting the rules of 
the game, in our opinion, unlawfully. And so, it makes it very 
difficult for our industry to survive when there is so much 
uncertainty, and it really is becoming just death by a thousand 
cuts.
    I forget what the figure is, but in the first few years of 
this Administration there were more federal regulations passed 
than all of the history of the United States combined. I mean, 
it just became an absolute onslaught of a new way of creating 
the business environment in this country. And so, you know, I 
talked about the Stream Protection Rule. That is certainly 
under your Committee's purview, but also the Waters of the 
United States, everybody in this room should be concerned about 
that. It will affect every single development project in this 
country, not just mining but construction, your personal home 
construction, large construction projects, the oil and gas 
industry.
    And so, we certainly appreciate your attention to that. 
That is something that you worked on, quite hard on. But yeah, 
I mean, really, it is just an onslaught every day of what is 
coming next.
    And again, isn't this process a public process where 
elected officials are creating new rules? I am quite confident 
this did not come across your desk for a signature, right? So 
this is not being reviewed by our elected officials. It is 
being created.
    The Chairman. J.P., do you want to weigh in here?
    Mr. Tangen. Yes, Senator.
    I hope to weigh in with a proposal that may be at least a 
partial solution and that goes to the point that I made in my 
testimony, and that is that the Alaska Land Use Council should 
be reconstituted.
    I remind you that in 1980 when ANILCA was passed, Section 
1201 set up the Alaska Land Use Council and it consisted of the 
federal land managing agencies plus the representative of the 
President of the United States, one of the co-chairman and the 
state counterpart to each of these agencies plus the Governor 
of Alaska as the other co-chairman. It was primarily in 1201, 
it was provided that the Land Use Council would be reconsidered 
in 1990. In 1990 the Land Use Council unanimously recommended 
to your Committee, this Committee, that the Land Use Council 
not be sun-setted.
    Nonetheless, this Committee and the Congress of the United 
States elected to allow it to disappear. Now, though, the Land 
Use Council essentially was a forum for coordinating the impact 
of regulations by the land use, the federal land management 
agencies, with the needs of the State of Alaska. And it was an 
opportunity for us to, we in Alaska, to want to have a voice in 
what was going to happen in regulations and recommendations, 
and activities that impacted federal lands had to be agreed to 
by the Council.
    We need to reinstate that Council. It is a priority, and I 
think that it would go a long way in addressing many of the 
issues that were addressed today. At least we would have state 
influence at a significant level on some of these regulations. 
These regulatory burdens, I mean. Bronk and Bill and others 
have made the point. They are outrageous, absolutely 
outrageous. I have clients cross my office who could not 
possibly begin to move the first yard of gravel at the placer 
mining operation if they had to sit down and read every word of 
the regulatory requirements that impact them. It literally is 
putting my clients and other people like them out of business.
    The Chairman. I would certainly, certainly, agree that when 
you think about those that are just out there on the creek 
trying to make a living, they are not going home at the end of 
a long, hard day and sifting through these regs or the CFRs to 
see what is coming their way.
    I also think that from the agency perspective, and we do 
not have anyone from the agencies that are testifying today. We 
will have an opportunity for that, hopefully, at another 
hearing. But in terms of what is now being required of your 
placer miners out there, Bronk, whether or not BLM has the 
resources, the technical expertise, to review and to issue all 
of these placer miner permits in a timely manner. So you have 
got on the one hand the miner not being able to keep up with 
it, but you also have the agency that has now put on themselves 
all this additional work. They cannot get to it, so it slows 
you up and you get to what Lorali has said, a mess, just a 
general mess.
    I want to ask each of you about this Presidential 
Memorandum on Mitigation. We held a hearing in the Senate 
Energy and Natural Resources Committee three weeks ago now, and 
we received good insight and testimony on that.
    The concern that has been raised is that this is not just 
something that will impact our public lands. I think it was 
you, Bill, that mentioned it will affect development on private 
lands, on our Native Corporation lands as well.
    Can any of you speculate what these additional mitigation 
requirements might do? We all recognize the uncertainty that it 
brings, but what might this do to the investment climate 
because it is pretty tough to get out there and gauge in much 
beyond a very, very, small operation if there is no investment 
for your operation. What do you think that this is going to be 
doing to the investment climate? Bill.
    Mr. Jeffress: Well I think that, first of all, the 
uncertainty even with the Corps of Engineers right now with the 
compensatory mitigation. Until they put the 1994 Alaska 
Wetlands Initiative back in the tool box, there is tremendous 
uncertainty on what it was going to cost. You have to figure 
that into the economics of your project.
    What this adds now is that every one of the federal 
agencies named in the Memorandum that has any part in 
authorization or issuing a permit can now issue or demand 
additional mitigation and whether avoidance and minimization 
takes care of that problem. Most unlikely that it will not. We 
have seen some of the endangered species where they have taken 
large land areas in the lower 48 with the sage grouse, and we 
have the same potential that is happening up here.
    What is critical on this is the Corps of Engineers met the 
intent of Congress with the Clean Water Act and potential 
mitigation. Now you have all these other agencies jumping on 
top of it and their regulations are not written yet. We do not 
know what their programs are going to be. Would you invest in a 
project in Alaska with that much uncertainty?
    It is scary for us. This is a perfect storm between low oil 
prices, low metal prices and a timber industry that is 
nonexistent anymore.
    The Chairman. Have any of the agencies that are outlined in 
the Memorandum, have they released any statements? Have they 
communicated in any way how they will either implement or 
enforce any of the mitigation requirements? Has there been any 
back and forth, any engagement with the agencies on this 
mitigation memorandum?
    Mr. Jeffress. The only feedback that I have had personally 
is that the draft mitigation policy that the Bureau of Land 
Management has implemented as a draft, is the template for the 
other agencies to use which scares the hell out of me.
    The Chairman. But there was no input to BLM?
    Mr. Jeffress. No.
    The Chairman. From anybody here in Alaska.
    Lorali.
    Ms. Simon. No, I do not think so. But it is also important 
to remember how much of Alaska is already under federal 
jurisdiction. And so to try to find land available for 
compensatory mitigation is going to get increasingly more 
difficult.
    That right there is an excellent answer to your question of 
what does it do to the investment climate. Again, it is just an 
enormous amount of uncertainty.
    The Chairman. One of the clear things that we heard in the 
testimony before the full Committee was that you have different 
agencies with an interpretation as to different terminology, 
different implementation, different standards, and again, just 
further uncertainty and really, outright contradiction at 
times.
    I wanted to ask, and this is probably best to you, Lorali, 
regarding the federal/state relationship. Can you give me your 
view on the relationship between the Office of Surface Mining, 
Reclamation Enforcement and the State of Alaska? The concern 
that I have here is that we have got our state operation.
    Ms. Simon. Right.
    The Chairman. And we have Interior over here and what is 
happening at the state level is basically being smothered.
    Ms. Simon. So off the record I may have a different answer. 
[Laughter.]
    But on the record I would say that the State of Alaska has 
been very strong, particularly on WOTUS as well as on SPR.
    The previous Parnell Administration as well as Governor 
Walker, they have been very strong on trying to stand up for 
states' rights and personally with the coal program and the 
Stream Protection Rule, this very small division within the 
Department of Natural Resources has an amazing resource talent 
in their people. They have been able to help a lot of us miners 
better understand even the Stream Protection Rule at the 
scientific level.
    So with that kind of support I see it working properly in 
that the people who are on the ground, you know, the coal 
program manager, his direct reports, who are the investigators 
for our mine. They have been working with OSM to try to break 
down the rule and really explain how it just does not work in 
Alaska.
    It, again, is this one-size-fits-all approach. What may 
work fine in Appalachia just does not work in Alaska. For 
example, we cannot collect 12 months of water samples, right? 
Because when it is frozen.
    The Chairman. The lake is frozen. [Laughter.]
    Ms. Simon. Yeah.
    And so like that type of thing where even this 
nullification clause of at any point, at any time, OSM could 
come in and just decide that the permit is not valid and pull 
our permit. Well, this could be 5, 10, 15, 35 years after we 
have been mining under this permit, and so then we would be 
held liable for basically operating illegally up to that point 
when they deemed the permit nullified. So that type of 
uncertainty, you are like, well how could that possibly even 
work? I mean, whose idea was this?
    So, yes, I guess, I am sorry. My short answer to your 
question is I believe the State of Alaska is standing very 
strong in their working relationship with OSM, particularly on 
the Stream Protection Rule.
    The Chairman. The last question is directed to you, Mr. 
Tangen, and you raised the Sturgeon case. We just saw the 
Supreme Court come out and get back to the Ninth, but there was 
some good, strong language in that case that recognized the 
role of ANILCA and the balance that was found in ANILCA.
    I am going to ask you to speculate a little bit about how 
the Sturgeon decision can affect the issues that we are talking 
about here today with regard to accessing our resources.
    You outlined some specific proposals for the Committee to 
consider, but given the direction that we saw laid down by the 
Court, how do you feel that this will impact us, if at all?
    Mr. Tangen. One has to speculate, obviously. But I think 
that if one reads the last few pages of this Sturgeon opinion, 
and I recommend the opinion to everybody who is interested in 
the subject because it is not very long but it is very 
powerful, the last few pages of the Sturgeon opinion, among 
other things in the remand to the Ninth Circuit, calls the 
Ninth Circuit's interpretation topsy-turvy. I think that that 
says a mouthful because to the extent that eight justices on 
the Supreme Court in a unanimous court signed off on that 
opinion and that language and that has to be a mandate to the 
federal agencies in Alaska that they need to take another look 
when they are permitting the land managing organic acts, when 
they are charged with essential responsibility.
    They have got to look at the implementation of the Land 
Management Act whether it is running out and using a hovercraft 
on the Nation River or almost any other question that comes up. 
And there are questions of access and whether something is a 
withdrawal, et cetera, that come up on a fairly regular basis 
in the courts in this state. They have got to take another look 
at it almost to ensure that these interpretations are viewed 
through the prism of what I refer to as, Alaska Statutory 
Trilogy.
    It is an important giant step forward. I guess maybe I am 
more than a little bit optimistic by suggesting that the 
agencies and the Federal District Courts will follow the clear 
guidance of the United States Supreme Court. But, you know, 
hope springs eternal. [Laughter.]
    The Chairman. Thank you, I appreciate that.
    With the first and the second panels we have been talking 
about our resources in the ground, oil and gas and coal and 
mining. Our third panel that we will turn to now is related to 
that human resource and the potential.
    I have just listed a couple of the examples that have been 
presented today in terms of the size of how or what we access. 
You mentioned, Bronk, that placer mining within the Fortymile 
District, the oldest district, 118 years, when you bring it all 
together it is about the size of an Iowa farm.
    When we talk about the area in ANWR that we would like to 
be able to develop, one of the analogies that we use is the 
size of Dulles Airport right outside of Washington, DC. Joe 
Marushack mentioned that impacted areas within all of the NPRA 
is 0.0008 percent.
    Within the Tongass National Forest, our largest national 
forest, the fact that with all of the decades of harvesting 
within that forest, the percent that has actually been 
harvested in forested areas is still hovering right around four 
percent.
    When you think about our state, the size, the scope, the 
assets that we have and what it is that we are trying to 
access, it really is a pretty small standard. But we recognize 
that even if it is just these small areas, we still access them 
responsibly and with the care for that environmental 
stewardship.
    We will now turn to our third panel to discuss the human 
resources, and that is our Alaskan workforce.
    So thank you. [Applause.]
    [Recess.]
    The Chairman. Alright. We are back with our third and final 
panel. As I mentioned, this is the panel to look at all of our 
human resources and the job that is underway to ensure that as 
we access Alaska's resources for the benefit of Alaskans that 
we have trained and a skilled workforce.
    The panel this afternoon will be led off by Vince Beltrami, 
who is the President of the Alaska AFL-CIO. Thank you for being 
here.
    He will be followed by Lisa Herbert, who is the President 
and CEO for the Greater Fairbanks Chamber of Commerce. Lisa is 
not having to travel very far.
    But having to travel even a shorter distance is Chad 
Hutchinson, who is head of the Pipeline Training Center. Again, 
thank you for opening your doors to us all here today.
    Kevin Pomeroy will wrap up the panel. Kevin is the Business 
Manager for Laborers Local 942.
    Thank you to all of you for being here and for joining us. 
We will begin with Mr. Beltrami.
    Go ahead, Vince.

     STATEMENT OF VINCE BELTRAMI, PRESIDENT, ALASKA AFL-CIO

    Mr. Beltrami. Thank you, Senator, and thank you for the 
invitation to be here.
    I did submit some prepared written testimony but as I have 
listened to the discussion here this morning it has, kind of, 
shifted to where I thought I would focus on a little bit. So 
that means I might ad lib a little and hopefully can stay 
within my five minutes.
    But I can--the part about what we do in terms of training 
and how that, maybe I'll be able to circle back to that before 
we are done.
    I wanted to start off with something you mentioned earlier 
in response to the President's visit when you said that I would 
say consider me part of the ``team ironic'' also. We believe 
that you can do responsible resource development and be 
conservationists at the same time, and we have many, many 
years' record of doing that in the State of Alaska.
    Alaska is always called the Last Frontier. I think the 
Arctic is, kind of, that final frontier that we have to look at 
with more potential, economic benefit to Alaskans and to the 
Federal Government, actually, if we could work on what I heard 
were the huge challenges of the previous two panels making sure 
that the permitting is streamlined and the processes work so 
that we can put Alaskans to work.
    Resource jobs have meant a huge amount to Alaskans, 
particularly to the members that I represent. We have about 
60,000 members in the state. About half of those come out of 
the building trades and a big chunk of those learned most of 
their training many years ago on the initial construction of 
the Trans-Alaska Pipeline System.
    That was a big, probably the largest job constructed in 
North America. It was done under a project labor agreement 
meaning that it was done in connection with the best training 
systems that exist for building trades folks in the world. I 
think that is our joint apprenticeship and training committees 
that we have.
    But a generation of workers were training on that job and 
on other jobs, and those folks are retiring in droves right 
now. The one thing that I kind of wanted to shift to on my 
testimony that is not in what I submitted was that what the 
state is facing in terms of challenges, financially. I have 
been going around the state doing other presentations, dealing 
with the state budget. Up until about a year ago or so, 90 
percent of the state's revenues came from what flowed through 
that pipe. Right now, of course, we are experiencing a huge 
downturn in those prices, and the oil industry is only 
providing about 20 percent of the revenue needed to balance our 
budget that passed last year. So the opportunities that exist 
are not going to be coming from the state's coffers right now.
    We just had the smallest state capital budget in the last 
15 years last year, and that was only what we had to put up to 
meet the federal match requirements. So we do not have the $2, 
$3 billion budgets that we have had over the past several years 
as a result of oil and gas exploration development and what has 
flowed through the pipe.
    But now we have an opportunity. We have to look forward to 
infrastructure development in the Arctic, on oil and gas, 
natural resources. The Arctic is going to be that next. We 
already have everybody heading up there. Russia is heading over 
there. Everyone is heading to the Arctic and staking their 
claim and we have to be prepared to do that.
    Not only do we need to do more responsible resource 
development, we have got to build infrastructure. I mentioned 
to you when I saw you in the airport, you know, I want to see a 
Coast Guard base built. We need to have a deep water port that 
can handle that maritime commerce that Admiral Barrett spoke to 
earlier today.
    There are all kinds of opportunities. Most of them are 
going to be in the Arctic, and that is where we think the 
greatest potential for economic stimulation exists.
    So I will speak just specifically to what we do and how we 
train in the union-based apprenticeship programs. We have been 
doing it in the state for about 70 plus years. We spend and we 
mostly pay for that ourselves. There is $11 million a year, 
roughly, that we have negotiated that is union employers with 
the union sitting at the table negotiating contributions that 
go towards funding our training programs, somewhere, usually, 
between $0.75 and $2 an hour out of the wage and benefit 
package goes into raise that money to pay for our students, to 
get them educated, to get them hands-on training and classroom 
training and everything that goes along with creating some real 
skilled craftspeople.
    And we have over $30 million in infrastructure in the 
state. Not including this facility which actually my 
predecessor, Jim Sampson, talked me into taking this job so 
that he could come here and build this facility. Just a little 
while ago before we started I was sitting in one of the 
classroom just going over notes and stuff and just looking 
around in there at all the personal protective equipment, the 
gear, the safety stuff and thinking, I sure hope we can fill 
these classrooms with Alaskans because we are positioned to do 
this, to partner with our union-based apprenticeship programs 
and anyone else that wants to come to the table.
    I think the Pipeline Training Center is a great example of 
where we work with our union-based apprenticeship programs but 
also with the university and places like Av Tech and things 
like that. There is a great training infrastructure, I think, 
built in Alaska.
    We have the ability to ramp up our training as we need or 
ramp it down as the economy dictates; however, we do not want 
to end up where we ended up back in the mid to late 80's. We 
built the pipeline and then we went into a recession. We lost 
tons of folks that we had trained to do that work who left. 
Luckily there was a lot of work that has come up through the 
90's into the 2000's that have been a lot of work that has been 
vibrant, kept our members working.
    I think that is one of the biggest challenges. We know that 
these investments in the Arctic that we are looking at, whether 
it is gas lines or pipelines or ports or Coast Guard bases or 
any of those things, they take several years to get going.
    We are at a time in this state's financial picture where we 
do not have the state able to provide projects to get people 
trained for those projects that will be getting started, the 
big projects, a few years down the road. So it is a real 
critical time that we look at whether it is G.O. bonds for the 
state to get projects on the books that we can train people on, 
whether it is federal spending, whether it is private 
investment spending. We stand ready to work with all comers in 
making sure that we can meet the need as we have been able to 
demonstrate what we have been able to do over the last several 
decades in the state.
    So, thank you for the opportunity, and I look forward to 
any follow up questions.
    [The prepared statement of Mr. Beltrami follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.225
    
    [GRAPHIC] [TIFF OMITTED] T1970A.226
    
    [GRAPHIC] [TIFF OMITTED] T1970A.227
    
    The Chairman. Thank you, Vince.
    Lisa Herbert, thank you for being here.

STATEMENT OF LISA HERBERT, PRESIDENT AND CEO, GREATER FAIRBANKS 
                      CHAMBER OF COMMERCE

    Ms. Herbert. Yeah, good afternoon. As you said, I am the 
President and the CEO of the Fairbanks Chamber of Commerce. We 
are a business advocacy organization currently representing 
over 750 businesses right now, all shapes, all sizes, all 
industries and they employ thousands of hard working Alaskans.
    While we tend to focus on local and state policies, we are 
mindful of the federal impact to the Interior, and Alaskans are 
both interested and adapted opportunities to responsibly 
develop those natural resources that are essential to 
maintaining and growing our sustainable economy.
    However, history has shown when government interferes with 
the decisions or jobs best completed by the private sector or 
imposes rules or regulations that are technologically or 
economically infeasible to implement, those opportunities are 
squandered. And as a result Alaskans suffer. While some of the 
laws and regulations have been formed with good intentions, 
their reach and complexity have extended to the absurd.
    My written comments are much more in depth here. I want to 
thank some of the members that helped frame some of my comments 
here today. I do not serve in any of those industries, but we 
have lots of members that benefit through the work of resource 
development here in the way of indirect jobs. And so, allowing 
them to, kind of, provide some comments for me to be able to 
pass along to you was really important. So thanks for that 
opportunity.
    So a few of the comments that I had received from my 
members, just to put on the record, painful examples that have 
stymied our economic development here include additional 
wetlands delineations and constraints, particularly where much 
of Alaska is underlain by permafrost. As Lorali commented, 
rules that work across the United States may not work here in 
Alaska.
    The excessive requirements and evaluation procedures 
imposed when performing environmental impact statements have 
reached beyond the original statutory language and intentions 
and the EPA's preemptive vote for the petal project before the 
permitting process had commenced on state land.
    The new BLM revegetation of wildlife habitat standards are 
anticipated to dramatically increase the effort and 
complications of work necessary to close out mining claims on 
federal lands. And I would mention this process was recently 
disclosed but developed to the point of approval without any 
involvement or input from the agencies in Alaska or the general 
public.
    The unduly frequent violations of the federal statehood 
compact, ANILCA, and just as the recent Sturgeon v. Frost case 
by the Supreme Court indicate that the Federal Government has 
gone too far.
    OSHA's proposed silica standards for the construction 
industry will cost more than originally estimated and will 
therefore translate into significant job losses for this 
industry and the broader economy impacting many of our Chamber 
members in the supply and equipment business as well as those 
in the non-construction sector.
    One of our members highlighted that they spent over six 
years in administrative and court procedures before they were 
able to get a final ruling on whether or not the Army Corps had 
jurisdiction over the development of the land they owned off 
Van Horn Road. Ultimately though, after years of litigation, 
they were able to proceed once the courts ruled in their favor 
but at a great cost to them.
    As was mentioned earlier, we are facing unprecedented low 
oil throughput in TAPS. Even worse, the drastic drop in the 
price per barrel of oil has dramatically affected our state's 
budget. There is a significant amount of oil that has yet to be 
produced but due to delays in government and this has 
significantly impacted investment here in Alaska.
    An example including the permitting delays experienced by 
ConocoPhillips, CD-5 and GMT project, if that project had not 
been delayed our pipe yards and welding shops would have full 
parking lots of people, our supply stores would be fulfilling 
orders and we would have trucking companies hauling loads of 
freight up and down the roads. But instead, we are sitting here 
waiting, and we have just been told no.
    I do think that it is ironic that in a time when our 
economy is starving for work our government continues to delay 
forward progress.
    Certainly resolving the high cost of energy is high on our 
priority list, has been for a long time. However, the EPA Clean 
Power Plan will continue to be problematic for Alaska and the 
evident thesis of ``dirty coal'' standards stands contrary to 
the practical realities of our Interior electrical energy 
generation. The substantial increase in requirements and rules 
of the recent Stream Protection Rule magnifies and further 
complicates the coal mining needed in Alaska to produce our 
power.
    In short, the invention and imposition of many new 
requirements and federally-administered rules are, in fact, a 
steady shift away from state sovereignty and economic resource 
development. Business members are being told no and the finding 
that Federal Government seems to be more and more restrictive 
in their issuance of permits.
    Our state is facing some real economic hard times right 
now. Over the last eight years Fairbanks has missed out of a 
lot of local private investment simply because agencies are 
unwilling to apply common sense, real world scenarios or 
objective determinations and our lack of natural gas here in 
the Interior has really stymied some major private investment 
from large corporations.
    But what the agencies always seem to fail to understand, 
especially here in Alaska, is that time really is money. Every 
delay usually means an entire season is lost out due to our 
construction season, and the mitigation costs usually are 
enough to kill the projects, if not significantly delay them.
    The margin for many businesses in this community are thin, 
but they are willing to stay here. They are willing to invest, 
and they are committed to Alaska.
    Today, on this panel, we have got business and labor 
represented. I think we are all just here asking for the 
opportunity to stay in business, get back to work and be 
assured that we are allowed to proceed making investments that 
make sense here in Alaska with some sort of certainty.
    We are a vital business community. We are dedicated to 
Alaska and its future. I want to thank you again for the 
opportunity to represent the voice of business here today.
    [The prepared statement of Ms. Herbert follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.228
    
    [GRAPHIC] [TIFF OMITTED] T1970A.229
    
    [GRAPHIC] [TIFF OMITTED] T1970A.230
    
    [GRAPHIC] [TIFF OMITTED] T1970A.231
    
    The Chairman. Thank you, Lisa, I appreciate it.
    Chad Hutchinson.

  STATEMENT OF CHAD HUTCHINSON, DIRECTOR, FAIRBANKS PIPELINE 
                        TRAINING CENTER

    Mr. Hutchinson. Thank you, Senator.
    I would like to start out and provide a brief overview of 
my background. I am a 25-year member of the Operating Engineers 
Local 302. I am also a graduate of Local 302's apprenticeship 
and training program. I spent the first 15 winters of my career 
on Alaska's North Slope working for Crowley Maritime's 
division, Catco, supporting Alaska's producers in exploration 
all across the North Slope's oil reserves and gas reserves. I 
have been from Camden Bay to Prudhoe Bay, the foothills of my 
folk's ranch. In 2006 I became an Alaska Operating Engineer's 
Apprenticeship and Training Coordinator for the Northern 
Region.
    In 2015 I was fortunate enough to be hired as the Director 
of the Fairbanks Pipeline Training Center. Our mission at the 
Fairbanks Pipeline Training Center is to train and develop 
Alaska's oil and gas, mining, construction workforce. The 
training center is a fully integrated facility. It provides 
classroom and hands on training in the disciplines of cross 
country pipeline training, building and trades, process tech 
which is led by the University of Fairbanks Community Technical 
College.
    We collaborate with our training partners to deliver 
training to apprentices, high school and college students, 
transitioning military personnel and vets and students from 
Alaska's numerous rural communities.
    The Training Center also has a linkage agreement with the 
Fairbanks North Star School District, the APJCC and other 
educational and training providers to execute workplace safety 
and on-the-job training with the specific goal of training the 
next generation of Alaska's oil and gas, mining and 
construction workforce with an emphasis on legacy jobs.
    I would also like to mention that none of this could be 
possible without our partners, oil industry partners, labor, 
state, Federal Government, as well as industry. They have all 
come together to make this training center a reality.
    With so many people talking about the development of the 
natural gas pipeline coming together, partnerships, the cost of 
the pipeline, the challenges that lay ahead in these economic 
times, my concern is who is going to build it? Where are these 
people at? To have a skilled, productive and safe workforce 
takes years to develop. Young people starting in apprenticeship 
programs today will just be moving on to joining their careers 
in four to five years. It can take another five to ten years 
before they have the skill and experience they need to move 
into leadership roles if the opportunities are there.
    We have two work seasons in Alaska. Summer and Winter. Both 
can be a very short time to gain the experience needed to move 
into these positions.
    In the oil and gas, mining industry there is no single, 
four-week class that will give you everything you need to know 
on a career, in these careers. It is the time in the classroom 
and on the job that creates a safe, skilled, experienced 
workforce with safety being a key factor.
    Workforce development and career exploration now will 
determine the success of a gas line in the years to come. This 
is a continuing investment that needs to increase double of 
what it is now. We need to recommit workforce development and 
career exploration with skilled trades now more than ever.
    We have been able to reach out statewide with career 
exploration opportunities. In return, people have had a chance 
and opportunity to work in their communities. Whether a gas 
line project develops or not, building a workforce is still 
needed today to maintain what is already in place now and other 
future products.
    I was once told the Trans-Alaska Pipeline was a home for 
the old and a school for the young. Those young people are now 
retiring and leaving the workforce everyday with history and 
knowledge that is not in a plans book or in a computer. It is 
this information that is passed on from Journeyman to 
Apprentice through the years of continuous workforce 
development.
    Thank you for giving me an opportunity to provide a short 
description of Fairbanks Pipeline Training Center and its value 
to Alaska oil and gas, mining, construction industries and 
residents.
    [The prepared statement of Mr. Hutchinson follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.232
    
    [GRAPHIC] [TIFF OMITTED] T1970A.233
    
    The Chairman. Thank you, Chad.
    Kevin Pomeroy, welcome.

    STATEMENT OF KEVIN POMEROY, BUSINESS MANAGER/SECRETARY-
                 TREASURER, LABORERS' LOCAL 942

    Mr. Pomeroy. Thank you, Chairman Murkowski.
    My name is Kevin Pomeroy. I am the Business Manager of 
Laborers' Local 942, and the Vice President of the Alaska 
District Council of Laborers. Serving in these roles I 
represent approximately 5,000 Alaskan Union members.
    These workers are vital to the fabric of Alaska involved in 
the construction and maintenance of roads, bridges, buildings, 
pipeline process facilities, pump stations, gathering centers, 
power plants, mines, maintenance, military facilities as well 
as workers in the private sector, tourism, manufacturing, 
facility maintenance and various other industry sectors.
    As a 47-year resident of the Interior of Alaska, halfway 
through my construction career, the emphasis has been on 
stemming the declining throughput.
    For the last decade as Business Representative of the North 
Slope and now Business Manager, I have attempted to stay active 
on issues surrounding new field opportunities, development and 
expansion of existing infrastructure for both the industry and 
the members I represent.
    You ask a traveling laborer that comes up to Alaska who 
controls most of Alaska's lands, they may in error say the 
State of Alaska. But many of those same peers are shocked to 
learn that 61 percent of Alaska's lands are controlled by the 
Federal Government. This leads to a significant amount of 
acreage and resources in Alaska which are off limits to 
resource production which means they are off limits to my 
members going to work on.
    Federal land is administered by five agencies: BLM, Forest 
Service, Fish and Wildlife, National Park Service, and DOD is 
over 223,000,000 acres. To put this into perspective this would 
be 5,753 parcels of land all the same size of the District of 
Columbia or the entirety of both Texas and Utah. That is a 
tremendous amount of resources my members do not get an 
opportunity to work on.
    But why is it so important to folks like us who live and 
work here? We are a young state. We are probably one of the 
youngest with the exception of Hawaii. This means we are still 
primarily a blue collar state. We build things. We are still 
building things. Yet, control of 61 percent of lands within 
Alaska are those lands that are off limits to potential 
resource development.
    From a peak of 2,000,000 barrels per day running through 
TAPS in 1988 throughput, as we have heard from the Admiral, has 
slowed to 540,000 barrels per day and could reach its minimum 
operating level of 200,000 barrels per day sometime after 2020. 
This could be, should be concerning for someone that is just 
starting his construction career.
    The Alaska economy and its residents rely on the ability to 
develop natural resources on state and federal land. I do not 
support the drill, baby, drill, mentality because too many of 
my bounties that fill my freezer end up from within the state. 
But because I want wild Alaska game coming from healthy forests 
and grasslands and my salmon from pristine clear waters, I 
strongly believe that all oil and gas development in Alaska 
should be planned, measured and well thought-out.
    As the gates were opening to the NPRA, ConocoPhillips 
applied for a permit for their Colville Delta CD-5 satellite 
development in 2005. Due to the various government agencies 
voicing concern to justify their existence, it was over ten 
years to first oil on the development from the time the permit 
was applied for. It was ten years that my members got to wait.
    CD-5 was the first commercial oil production from the NPR, 
set aside for that purpose almost 93 years ago, and it is 
estimated to hold 800,000,000 barrels of oil. An additional 1.5 
million acres were set aside in the 1980s because of its 
potential enormous oil and gas industry resources in the 10-02 
area of ANWR.
    I am not going to engage in the political, ongoing media 
controversy over whether to drill for oil in ANWR; however, I 
would suggest that the minimum acreage needed for development 
would be the perfect opportunity for the oil industry, national 
defense agencies and the environmental communities to work 
closely together. Whether the United States, as a whole, is 
ready to admit it or not, development of the Arctic's oil and 
gas resources is and will continue taking place. Alaska is the 
only reason the United States has a seat at the table.
    The near shore development of 10-02 or the offshore 
development potentials in the Chukchi and the Beaufort could be 
the new environmental gold standard for oil and gas development 
in the Arctic and the OCS. Imagine collaboration between the 
oil industries, national defense agencies and the environmental 
communities as Alaska and the United States show the rest of 
the Arctic nations what American technology and ingenuity can 
achieve.
    As the polar ice recedes, resource development and 
navigation both become technologically and economically 
feasible through the Northwest Passage connection between the 
Pacific and Atlantic Oceans.
    Let me switch gears just a little bit and talk about 
timber. I mean, it was timber that brought my family to Alaska 
from the forests of Northern Montana in 1969. It was timber 
that used to employ a large amount of my members down in 
Southeast Alaska.
    After the passage of the Tongass Timber Reform Act in 1990 
the Forest Service had the authority to unilaterally modify the 
contracts on its last two long-term timber sales. It is no 
coincidence that timber sales went that year from 2,000 million 
board feet to about 100 million board feet by 2007. There is a 
local joke going around Alaska here that when the 2015 
Christmas tree was chosen and harvested for the U.S. Capitol it 
doubled the annual harvest that came out of the Chugach 
National Forest.
    In closing I want to briefly address mining. It is hard to 
defend actions of the Federal Government and not make an 
argument on overreaching environmental enforcement when raids 
are being conducted out of helicopters with armed agents. It is 
even harder when a government agency is less than cooperative 
in a review of how the raid was conceived and executed. What 
kind of message does this send to the residents of Alaska?
    As I sit before you today I feel the Federal Government 
repeatedly blocks development of Alaska's most resource rich 
lands and waters. These are the same lands and waters that put 
many of my members to work. Alaska needs to be allowed to be 
the stewards of their resources, not bureaucracy 4,000 miles 
away.
    The last point I want to make in testimony has addressed 
the development of our natural resources. We have heard from a 
lot of industry, we have heard from some of the organizations 
that represent different industry, but the panel here 
represents some of the workers, some of the people who live in 
the Interior, people that it is not just a way of life for 
them, it is not just a living. But it is who they are. It is 
why they come to Alaska.
    Thanks for the opportunity to talk today.
    [The prepared statement of Mr. Pomeroy follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.234
    
    [GRAPHIC] [TIFF OMITTED] T1970A.235
    
    [GRAPHIC] [TIFF OMITTED] T1970A.236
    
    [GRAPHIC] [TIFF OMITTED] T1970A.237
    
    [GRAPHIC] [TIFF OMITTED] T1970A.238
    
    [GRAPHIC] [TIFF OMITTED] T1970A.239
    
    The Chairman. Thank you, Kevin, I appreciate it.
    Well thank you all.
    The common thread here is really to figure out a way to 
stay in business and to keep people working and working in 
well-paying jobs. The training programs that are offered, 
whether it is here at the Pipeline Training Facility or through 
our union programs and the training facilities and then what we 
have on the private side, this is about putting Alaskans to 
work in jobs that are good and that can sustain their family.
    I do not recall whether it was you, Chad, that used the 
phrase that training needs to be continuous. We all know we 
live, work and operate in a state where we tend to go from boom 
to bust, and we have historically. That has been difficult, but 
it has been our reality.
    As I think about the challenges that we have as a state 
with recruitment and retention, listening to the comments about 
the aging workforce that is part of our oil and gas sector. 
Admiral Barrett faces it with TAPS. You have got great 
expertise but that expertise began--I graduated from high 
school at a time that every able-bodied young man, at the time 
it was mostly men, were going off and working on the pipeline. 
Now they are all getting ready to retire. It is good for them. 
It has been good for their families. But the real question is 
will their kids, the young men and women that are my son's age 
at 23 and 24, do they view this as an area that they want to go 
into? Do they see the promise as my classmates did when we were 
getting out of high school? This is the concern that I have. It 
is not being viewed as an area for opportunity because of the 
uncertainty that we have heard through now three panels.
    The question to you all is from your perspective, how can 
we work to reduce some of that uncertainty? Again, those things 
that are holding back our potential. We know that our men and 
women here in Alaska are young people. They have extraordinary 
potential. We give them the training so they can pretty much do 
anything. But how do we reduce some of the uncertainty?
    I am going to start the question with a recognition that 
you have raised, Vince, about the very slim capital budget at 
the state level this year. So you do not have a good horizon on 
the state level for projects. We have a pipeline that is at 
556,000 barrels a day, down well below half. We have layoffs 
that have been announced within the industry because of low 
prices. We have Shell that moved out last year because of 
regulatory uncertainty and disappointing results after one well 
at $7 billion in seven years, but one well. What can we do, 
recognizing the uncertainty that we face, to provide a little 
bit more optimism for young people so that they view Alaska's 
resource industry as a place for them to go? I will let anyone 
of you begin with that long question. Go ahead, Vince.
    Ms. Herbert. You want to go first?
    Mr. Beltrami. I guess.
    The Chairman. We will start alphabetically, V.
    Mr. Beltrami. There you go. [Laughter.]
    Well that is a pretty tough question, obviously.
    In looking at what has happened in Juneau, I guess, one of 
the things they did do, we are only two weeks, two and a half 
weeks, from the end of the regular legislative session, and 
they are talking about what the fiscal plan is going to be for 
the future. They have got to come up with something that 
substantially knocks off this $4 billion deficit or people are 
going to be walking away from their homes like they did in the 
80s. Already the credit rating agencies have, you know, 
downgraded the state's credit rating based on not having a 
fiscal plan.
    But the good news is we are one of the most rich states, 
not only in resources in the ground but with our $53 billion in 
the Permanent Fund. There are opportunities to solve some of 
these problems and get the budget in line. Once that is in 
line, I think, then we can look at investing and like I said, 
one of the things that the legislature, right now, appears to 
be fearful of doing is making an infrastructure investment by 
using G.O. bonds or whatever other measures that we have 
available to seed some of that infrastructure that is going to 
be necessary for a long range fiscal plan.
    We have to have a longer range fiscal plan that includes 
figuring out how to streamline a lot of the regulatory 
obstacles and permitting that we find in trying to develop 
resources in the state. In general, we have got to get the 
state's fiscal house in order and then we have to look to the 
Federal Government as well and then streamlining a lot of these 
projects, I think, will open up opportunities going forward.
    The Chairman. Lisa, what else for certainty?
    Ms. Herbert. I think that there is very little certainty. I 
jotted down some notes just listening to the different 
testimony and uncertainty, transparency, unpredictability, 
state sovereignty, were all words that almost every single 
panelist have used up there. So many of those are within our 
control.
    There is no reason why we cannot provide certainty to 
industry, why we cannot have a predictable investment climate. 
And for our Chamber, you know, we used to focus on the local 
and state issues and now at the forefront of almost every 
single one of our committee meetings of which industry is well 
represented, they have got experts serving on each of our 
committees.
    We are talking about how can we streamline and reform the 
federal regulations that have burdened the private sector and 
have put a lot of thought into the work. You mentioned the 
thousands of employees that get laid off. Industry is operating 
in an unpredictable environment. I probably do not have the 
solution here for how to move forward, but it is evident when 
you have 12 people up here speaking that the uncertainty is 
really killing private sector investment, jobs and the economic 
opportunities here in Alaska.
    The Chairman. Chad.
    Mr. Hutchinson. We talked about the young generation and 
new generation coming into the workforce. I often wonder what 
do they know about it? Do they have an opportunity to go 
explore these careers?
    We look a lot at the Fairbanks, Anchorage, Juneau areas, 
but there are a lot of rural communities out there with a lot 
of people that are very talented. I think bringing them in and 
allowing them, these people, to come in and explore different 
career options will help us build a better workforce. People 
are going to be able to go to work at something they enjoy not 
just something that they are put into because that is what is 
available at the time.
    Requiring training hours on various projects, the State of 
Alaska requires hours on certain highway projects. Why can't we 
do that on the military bases? Why can't we do that on the 
North Slope? I know it is private up there but we have to 
utilize the resources that are walking out the door right now.
    The Chairman. That is a great point on the education.
    I was at an Alaska Youth Corps Challenge program. They are 
graduates given an option for an additional month of 
apprenticeship with different unions. I happened to go out to 
the iron workers training facility, and you had all these 16, 
17, 18-year olds that were being exposed for the first time. 
Most of these young people were young people who were from 
villages around the state. Young women saying, ``Man, I want to 
be an iron worker.'' It was good, but education is a key piece.
    Kevin.
    Mr. Pomeroy. I am wondering, you know, it was not that long 
ago that folks, young folks, that did not want to go into 
construction, you know, they got a college career. We have had 
more that are looking at why they are in construction. They, 
kind of, see the writing on the wall. There are not as many 
opportunities as they had originally thought.
    They are actually in construction but I have got some that 
are talking about going back and continuing in their education. 
So, you know, having another fallback. It used to be that 
construction was the fallback. If you could work with your 
hands you could pretty much make a living, but that is not 
always the case anymore.
    I think it was Bronk that had said up here on one of the 
earlier panels that he had the bigger list of the new standards 
or the new ``thou shalts,'' there seemed like there would be a 
way to make those folks, to compel them to come to Alaska or 
wherever the region is, that they are getting ready to 
reinterpret. They are going to rewrite the plans book on how 
these folks play the game or get a way to make them come to 
Alaska and see some of the obstacles that they may not be 
seeing from sitting in their ivory tower rewriting these rule 
books, if you will, because it is scary.
    I mean, construction we have got to replace where you do 
not have the workforce in the queue, like Chad had mentioned. 
You do not create a well drill tonight. You do not create a 
welder in a year, two years. You do not create an operating 
engineer in a couple of years.
    You have got to have enough sustainable work out in front 
of the workforce, keep them engaged and keep them wanting to be 
in Alaska otherwise we are going to wake up one day with a big 
project and we are going to have to import all our labor 
because they will no longer be there.
    The Chairman. I am going to ask a question and you can 
figure out which section of it you want to answer.
    Admiral Barrett, as the President of Alyeska Pipeline, I 
think, has been a very strong proponent for continuing the life 
of the Trans-Alaska Pipeline. The best way to do it is not 
engineering technologies to reheat the oil at certain points. 
It's to fill up the pipe.
    When we think about ways to fill up the pipe, in my view, 
the answer that is most direct and clear is through ANWR, 
accessing a small portion of ANWR. ANWR is relatively close to 
the main pipeline on land. It is, in my view, one of those 
opportunities that we have been foreclosed on by the Federal 
Government. Yet it is something that can stand as the solution 
and when we are talking about creating jobs and the incumbent 
benefits that are associated that ANWR is clearly a part of 
that answer.
    We also recognize that there are many of your folks that 
are engaged not only in oil and gas opportunities, but they are 
participating in alternative and renewable energy projects 
around the state whether it is wind, we look at Fire Island as 
you came flying in, whether it is hydro power, extraordinary 
hydropower resources, or some of our other abundant renewable 
resources.
    This will be last question to each of you. In terms of our 
energy opportunities as a state and how you see the workforce 
and the job opportunities for them, talk to me a little bit 
about greater access to our oil resources, ANWR, offshore, 
NPRA, renewables. Where do you see that future?
    Mr. Beltrami. I am trying to remember the year but I think 
it was in the 90's. I was in DC, your Dad was the Senator with 
Senator Stevens and Congressman Young, and we had a gigantic 
building trades convention in DC. We did a march, basically 
walked up to the Capitol steps. We had 1,000 people there. The 
stars were aligned allegedly, and we are still hoping for that 
opportunity.
    I think the building trades unions in general have always 
been extremely supportive. I have had conversations with folks 
that had no idea really what the true situation is up there. It 
could be done, as I think, very safely, that it is the best 
opportunity to access, like you said, convenient to the 
pipeline's location, etcetera.
    And there is a lot of mis-information, education out there. 
I think we still have to never leave that opportunity to weigh 
in against anyone or, with all due respect to anyone that 
objects to it, of drilling in ANWR or not. I do think it is 
probably one of the most safe places that we could access 
safely and do this right that does not have to worry about a 
lot of the worst conditions in the offshore which I still think 
we can do most of these things safely. We cannot give up on 
pushing that.
    You mentioned renewables. I was Chair of the State's 
Renewable Energy Fund Advisory Committee that was doing about 
$50 million a year in renewable projects all around the state. 
Of course right now we cannot add to that because of the 
state's situation. It would be great if there were any federal 
dollars to push on expanding renewable opportunities.
    One of the concrete things I would like to see, Chad 
alluded to it a little bit, is recently Governor Walker put in 
an Executive Order that beefed up apprenticeship utilization on 
anything that the state contracts. I would suggest that the 
Federal Government could do something similar if you want to 
always have a pipeline, if you will, of workers available and 
in projects if there could be some kind of a specific 
apprenticeship utilization language associated with any bids 
that are put out for work on federal jobs whether it is on 
military bases or anything else.
    That is one way to keep folks in the training pipeline. 
Short of that we just, like I said, we stand ready to plug 
people in. We have outreach efforts everywhere, local hire that 
we can implement in villages and everywhere else that any 
communities that would be, you know, have a project being done 
nearby.
    So, like I said, we stand ready, and we will do all that we 
can to help in forming a long range plan to put Alaskans to 
work for the future.
    The Chairman. Other comments on energy job opportunities?
    Ms. Herbert. I think we have a tremendous asset just up on 
the hill here, our university research and development. You 
know, we need to be able to leverage what they do up there. For 
every dollar they bring in they are able to leverage that in 
dollars back into the economy.
    I know that we are facing unprecedented budget issues right 
now, but we really need to get that fiscal house in order. The 
military is fortunate to have serious dollars coming to us by 
the way of military construction. They, kind of, ride that 
bubble a little bit. But we have tremendous assets up on the 
hill and here in this building.
    I have always loved saying, we are all in the oil industry 
because we truly are. I think when people say close ANWR and 
NPRA and you look at the turmoil that is happening in the 
Middle East, we have our resources right here on American soil, 
and the fact that we are not able to produce them is shameful.
    I think there is so much more that we could do for that. I 
am not an expert in that industry at all, but what I do know is 
when people are working, the economy is thriving and these guys 
have Alaskans working and the private sector is thriving as 
well.
    Alaskans have done it best. We have a track record of 
producing resources responsibly, oil and gas and into mining. I 
know that just for every oil and gas direct job, 20 jobs are 
created indirectly. And those are in the nonprofit world, in 
the private sector. Those are the restaurants. Those are the 
schools. Those are everything. Everything is touched by the oil 
and gas industry, and to not recognize that hurts us. I think 
there is lots more that we can do.
    The Chairman. Great.
    Chad.
    Mr. Hutchinson. You mentioned ANWR. I can honestly say I 
have been there and spent a lot of time right in that vicinity.
    I spent five years at Point Thompson which borders ANWR and 
have also been to Camden Bay which is the beach right at ANWR.
    From 1991 from the time I started working there until 2005 
when I left, the difference in environmental policies and the 
safety policies is tremendous. I do not think a lot of people 
understand that from what it was when the Navy was up in the 
North Slope in the 1940's and 1950's and what they left behind 
to where it is today with virtually zero footprint left behind. 
I mean, that the companies are going out, the contractor has to 
go out, and he's accountable for every little thing, not only 
is the project done in the wintertime, but they go back out in 
the summertime to clean up after those projects. It is a huge 
thing. It is a huge difference.
    Developing our resources, renewable energy, oils, mining, 
we need to do something. We need to move forward. Somewhere we 
have got to have the people to do it.
    Like Ms. Herbert said, it is not just the construction, oil 
and gas industry. It is everybody this is going to affect. If 
the gas line comes into play, you are going to need people in 
restaurants. You are going to need people selling ATVs and 
boats and repairing cars.
    Across the street there is a help-wanted sign that has been 
up over there for three to four years that has not been taken 
down. They are going to have to put up a bigger sign is what it 
boils down to. We need to start developing these people. We do 
not want to train just to train. We have got to have places for 
them to go.
    Thank you.
    The Chairman. Kevin, do you have a final word here?
    Mr. Pomeroy. Senator, I would agree with you that ANWR 
should be something to take a look at. I mean, you are looking 
at a development that has been compared to a postage stamp 
sitting on a football field. That would be the type of acreage 
and impact it would do.
    You know, I have noticed as I have come through 
construction, my construction career, you know, I used to be 
the young guy on the field or on the spread. It has been a lot 
of years since I have been the young guy in this field. 
[Laughter.]
    But one thing I have noticed as I visited some of the job 
sites up there as an agent is there is a younger workforce that 
by it being indoctrinated into their training, they just have a 
higher level of awareness for the environment. Not to say that, 
you know, Chad and myself when we were up there working on the 
oil field that it was not there, it is just that environmental 
component is something that is put into training as we go 
through the apprenticeship programs.
    You cannot go from one contractor to the next without 
seeing some impact of that, like the safety record. Alyeska is, 
and ConocoPhillips and BP, I mean, in Alaska, they kind of 
pioneered and led the charge, if you will, on safety records.
    It is when it becomes part of the culture that you know you 
are there. I truly believe that we have got young men and women 
in the apprenticeship programs and within just the skilled 
trades that have that same sense of environmental stewardship 
that has become who they are, that they are going to be the 
workforce that is up there working on those projects. Do they 
want to see a catastrophe? No. I truly believe that they will 
do everything they can to minimize it.
    I would love to think that Alaska could rely on renewables, 
but I was just down in Juneau here a couple of weeks ago and 
with the low snow pack there were a couple of folks wondering 
if they were going to have enough snow melt in their reservoir 
to run their hydro. It does not take an Einstein to know that 
after one o'clock in the afternoon in Fairbanks, Alaska, solar 
is not going to do you any good.
    So you have got to try to develop those renewable and more 
environmentally-friendly energies. Here in Alaska, particularly 
in the Interior and in some of the rural communities, you still 
are reliant on natural gas and hydrocarbons. And so, I think 
the best, the future is to continue to develop the safest way 
to access it, and that is through your workforce.
    The Chairman. Great.
    We have heard great comments all around. I think it really 
helped to round out the conversation today, so thank you for 
the time that you have given us and really the thought and for 
men and women and the families that you represent because at 
the end of the day this is about Alaska. This is about our 
homes. So thank you very much.
    Thank you for that. [Applause.]
    For the benefit of those here we are just about to the four 
o'clock hour, but we made arrangements with the Committee to 
allow for some limited public comments to come before the 
Committee for the record.
    As I mentioned at the outset we would ask that those who 
wish to provide an oral comment, please try to keep your 
comments to just two minutes, and anything that you might 
provide in writing will be incorporated as part of the full 
Committee record. That will not be limited to a two-minute 
statement. You certainly have greater flexibility with your 
written statement.
    I am told there is a list. What I will do is call the first 
three people to be on deck. We will be led off by Bernie Karl. 
He will be followed by Susan Todd, and then Princess Lucaj, and 
I don't know if I am pronouncing the last name correctly. If 
you would just come to the microphone. I would ask that you 
state your name. What else do they need for the record? Okay, 
if you can provide your name, spell your last name so that it 
is included correctly as part of the record, and a business 
affiliation, if you have one.
    Mr. Karl. Bernie Karl, K, A, R, L. Chena Hot Springs 
Resort. And what else did you want? K, A, R, L. I did spell 
that.
    The Chairman. Good.
    Mr. Karl. Alright.
    Senator, thank you for this opportunity. It seems to me 
there is more opportunity now than there has ever been in the 
history of man, but it is not business as usual. I did not hear 
one speaker talk about the opportunities in a smoke stack or 
the opportunities in a landfill.
    It is insane that we have smoke stacks. You know why we 
have them? Because the solution to pollution is dilution. Why 
do we have a landfill? Nature has no waste. It is insane that 
we do not take charge of what we have. I am telling you that 
there should never be a landfill, there should never be a smoke 
stack, and we are smart enough to do something about it. The 
reason we do not do anything about it is because we are 
addicted to oil in one arm, and are addicted to greed in the 
other.
    Do we need oil? Absolutely. There is more opportunity on 
the North Slope than there has ever been. C-One through C-Six 
are the building blocks for most all chemicals in the world. 
Our government wants to build a pipeline and ship it out of 
here and take 30 pieces of silver. Shame on us. Those are the 
building blocks for the world.
    We sit on the world's largest gas field, world's second 
largest gas field. We should develop that. All the highest and 
best paid jobs should be in Alaska. For $4 billion in four 
years with Alaskan help, which happens to be some of the best 
help in the world, we could put one million barrels a day of 
methanol into that pipeline.
    You take CH4. You take out the four molecules of hydrogen 
and you bond that with nitrogen and you bond that with CO2. 
Yeah, CO2. Twelve and a half percent of that field is CO2. Now 
you make a liquid fuel. And that fuel is 100,000 BTUs per 
gallon. You burn it in any engine and store it in any tank that 
is already here.
    Alaska should lead this energy parade. We are following. 
Shame on us. We need to lead. We have the brightest people 
here. Our indigenous people have the highest IQ of any 
indigenous people on the Earth. They own a lot of this land and 
resources, as you heard.
    So if you want to look at the high, the top 14 corporations 
in Alaska, number four is Lynden. The other 13 are all Native 
Corporations, and so that proves my point.
    I only have just a second left but thank you for the 
opportunity. It is shameful what we are doing. The only thing 
we need is zero federal oversight and zero federal help.
    We want to make your job easy. We have got to stop taking 
your help, and we damn sure do not need any more federal 
oversight and this state could grow.
    The Chairman. Thank you, Mr. Karl.
    Susan Todd.
    Ms. Todd. Now that's a hard act to follow.
    The Chairman. Yes, it is. [Laughter.]
    Ms. Todd. Okay, thank you, Senator, for the opportunity to 
testify. I am Susan Todd. T, O, D, D.
    I am a mother of two, and I have been a professor of 
Natural Resource Management at the University for 26 years. I 
have been in Alaska 41 years. I came up for the pipeline boom 
which was a hell of a lot of fun.
    I have always felt development can be done responsibly, and 
I used to get a kick out of bumper stickers that said, 
``Alaskans for Global Warming.'' But with the increasing 
evidence of climate change in 1999, I started including a unit 
on global warming in my courses.
    Every year I updated my lectures with the latest 
statistics. Every year they were scarier. I went from being 
unconcerned to being deeply worried.
    All ten of the hottest years on record have been since 
1998. The top four records have been since 2010 with 2015 
breaking them by a shocking margin. 2015 is now the warmest 
year on record by far.
    The scariest thing about climate change is that warming 
creates more warming. After a tipping point, global warming 
will fuel itself and it will be unstoppable.
    The sea level is rising exponentially. Instead of moving 
ten villages we could be moving 50. The economic and social 
cost of losing coastal cities is incalculable. China alone 
anticipates 350 million refugees from their coastline.
    The world is having trouble absorbing just two million 
refugees from Syria. What will happen when we have one billion 
coastal refugees on the move?
    These are just a few of the impacts we face. The primary 
cause is CO2 emissions. There is an overwhelming scientific 
consensus on climate change and a recent article, scientific 
article, by James Hansen and 18 other globally recognized 
scientists had this to say, ``There is a real danger that we 
will hand young people a climate system that is out of control. 
. .'' It is hard. ``We conclude that the message our climate 
science delivers to society and policy makers is this--we have 
a global emergency.'' Scientific journals do not usually say 
things like that.
    Innovative technologies and renewable energy sources are 
the answer, and time is of the essence. Americans, as Bernie 
said, are the most innovative people on the planet. We entered 
World War II flying wooden biplanes, and within just five years 
we had jet fighters. When we decide to solve tough problems, we 
do it.
    To stop climate change we must transition off fossil fuels 
as soon as possible with new sources of energy and new 
technology. I urge you to do all you can to reduce our 
dependence on fossil fuels and to develop renewable energy 
sources. The question is not can we afford to do this; the 
question is can we afford not to.
    Thank you. [Applause.]
    The Chairman. Thank you.
    Princess, welcome.
    Ms. Lucaj. Hi. Quickly my last name, L, U, C, A, J. You'll 
have to excuse me, because I'm a little nervous right now.
    But I am standing before you as an Alaskan Native woman, 
mother, and what I'm most concerned about is maintaining the 
ecological wellness, integrity of our natural resources. I am 
also wary of the erosion of the public voice in decisions that 
have to do with the destruction and privatization and 
commodification of our precious life-giving resources such as 
our crystal waters and riverways.
    When you talk about streamlining processes for mining and 
oil and gas development it frightens me, quite frankly, because 
EPA regulations are there for a reason, to protect you and me, 
to protect the public.
    I am sure that if we had not had public protests long ago 
we would have seen development on the coastal plain of the 
Arctic National Wildlife Refuge or at Pebble Mine or seen HB77 
go through last year.
    So the real threat to our national security is the 
devastating effects of climate change. The real threat to our 
overall well-being is to our wildlife. It is what is happening 
to the chinook, to our marine life and to our caribou, moose 
and migratory birds. We are not the only species that lives and 
dreams on this planet.
    What right does the Porcupine caribou herd have to return 
to its early nesting ground on the coastal plain of Arctic 
National Wildlife Refuge?
    We cannot drill our way out of this predicament we find 
ourselves in as human species. We must begin looking elsewhere 
to create jobs. We are suffering today because we did not do a 
good job of diversifying our economy.
    When I was 17 years old at Lathrop High School a New York 
Times article dated May 29, 1990 read, ``As oil bounty drains 
Alaska becomes uneasy.'' In the article then-Governor, Steve 
Cowper, speaks of his optimism about our ability to diversify 
our economy and that taxes could make up from where we are not 
able to expand. That was 15 years ago. Fifteen years ago and I 
feel very, very strongly that the problem of Alaska's 
socioeconomic and ecological environmental sustainability has 
been put off on my generation. Why did we not do anything 20 
years ago when we knew that this was coming down the pipeline, 
literally. It was going to drain out eventually because it has 
been a one-pony show, a one-stop-shop.
    Why are we still having this conversation? It is just 
business as usual. To me it feels like business as usual.
    It is time for us to stretch our minds and hearts in 
innovation and work together to transition our economy to one 
that is truly sustainable and logically sound. We need to fund 
renewables and to transition our workforce up to then to work 
in that field. We need to encourage and incentivize our local 
economies and we need every Alaskan to engage in this process 
of transitioning our economy off of fossil fuels.
    We should really think about what these words mean. 
Progress. Prosperity. Development. [Applause.]
    The Chairman. The next three names we have are Erik 
Schaetzle, Tristan Glowa and Odin Miller.
    So if Erik is here, welcome.
    Mr. Schaetzle. Thank you, Senator Murkowski, members of the 
Committee.
    The Chairman. You are going to have to get just a little 
closer so that they can pick you up on the mic for the record.
    Mr. Schaetzle. Thank you, Senator Murkowski, members of the 
Committee.
    Our state has a goal of 50 percent electric----
    The Chairman. Erik, I need you to spell your last name 
because it is a little challenging.
    Mr. Schaetzle. My last name is Schaetzle. S, C, H, A, E, T, 
Z, L, E.
    Our state has a goal of 50 percent electric generation from 
renewable sources by 2025. As a whole, Alaska already produces 
over 20 percent of electricity with water, wind and other 
renewable energy sources and has seen a 20-fold increase in 
wind power generation since 2007.
    Kodiak generates over 99 percent of its power from 
renewable energy resources. They are now switching from oil to 
electric heat pumps to heat their homes as they are in Seward 
and in Juneau as well.
    Solar energy has grown considerably across the state in the 
Northwest part of Coral to Copper Valley. In Fairbanks the 
Golden Valley Electric Association is exploring community solar 
projects. This is where the world is headed, and Alaska is 
extremely well-positioned to lead it with abundant renewable 
resources.
    The Chairman. Hang on just one second. Can he keep talking 
or no? It is all about storage. [Laughter.]
    There we go.
    Mr. Schaetzle. Alaska is extremely well-positioned to lead 
it with abundant renewable resources, a skilled workforce and 
splendid northern engineering know-how to develop the 
technologies that can lead America toward a low pollution 
future and energy independence.
    Last year Mark Jacobson of Stanford created a 100 percent 
renewable road map for Alaska. We have the solar resource 
comparable to Germany, geothermal resources suitable for 
geothermal power projects, over 90 percent of the nation's 
river current and tidal energy resources and outstanding wind 
resources.
    Our Arctic neighbors are already doing this. Finland has a 
100 percent renewable energy plan. Russia recently completed 
renewable energy system modeling. It is one of the most energy 
competitive regions. Canada created a transition pathway for 
its low carbon future. One hundred forty four countries 
currently have renewable energy policy targets.
    Refocusing investment on renewable energy providers would 
shift oil and pipeline workers to building energy production 
systems that take advantage of Alaska's renewable energy 
potential.
    The transition to a low-carbon society and economy will 
enhance prosperity and well-being, modernize infrastructure, 
develop regional, renewable energy sources and create new 
business and new jobs in a diversified, innovative, knowledge 
based economy.
    But according to research published just this last 
Thursday, the 24th of March, in Global Trends and Renewable 
Energy Investment 2016, 2015 produced a new record for global 
investment in renewable energy.
    [The information refered to follows:]
    [GRAPHIC] [TIFF OMITTED] T1970A.240
    
    [GRAPHIC] [TIFF OMITTED] T1970A.241
    
    The amount of the money committed to renewables excluding 
large hydroelectric projects rose to $285.9 billion. That was 
more than double that of new coal and gas generation.
    Thank you for your attention.
    The Chairman. Erik, thank you very much. [Applause.]
    Tristan Glowa, welcome.
    Mr. Glowa. Thank you, Senator. My name is Tristan Glowa. G, 
L, O, W, A.
    So I grew up and continue to love living in Fairbanks, and 
I am currently a student at Yale University taking a semester 
or two to be here at UAF taking classes on Arctic issues.
    I have been an active community organizer for several years 
here and currently organized with the Fairbanks Climate Action 
Coalition. So we represent a large number of and growing number 
of individuals in the community here, faith groups, students, 
Alaska Native leaders, scientists across the board.
    And as someone who plans to continue living in Fairbanks 
and working for this community for the rest of my life, I have 
to say that I am concerned about the future that you are 
envisioning here of expanded fossil fuel production as our 
community here is seriously at risk for our global and domestic 
fossil fuel dependence.
    In Alaska we are on the front lines of fossil fuel-induced 
climate change. This is indisputable. The worst things, 
wildfires, permafrost melt, unpredictable winters, are already 
affecting this community. Climate change is an existential 
threat to my generation and all future generations.
    In an immediate sense oil dependency is also hurting this 
community as our lack of revenue diversification has resulted 
in a harsh program of austerity being proposed for our schools 
and universities. This seriously concerns me as we cannot 
afford to cut back our investment in the human capital. We need 
to look past these tough times.
    The solution that we need for the well-being of my 
generation and future generations is not to double down on 
fossil fuel extraction. It is not to drill from the Arctic 
refuge against the wills of the Gwich'in Steering Committee. We 
need to immediately work to diversify our economy and 
transition away from the fossil fuel economy.
    We should be focusing on green jobs building clean energy 
systems, energy efficiency, sustainable infrastructure and a 
resilient local food system. We need you to lead on this. This 
is leadership that we need.
    Thank you.
    The Chairman. Thank you, Tristan. [Applause.]
    Odin Miller, go ahead.
    Mr. Miller. Good afternoon. Thank you for allowing me the 
opportunity to comment.
    As a lifelong Alaskan I would like to invite Senator 
Murkowski and the members of these panels to fully embrace 
climate science. Its implications for Alaska are abundantly 
clear. Climate change is a grave threat to our state's future. 
The economic consequences of climate change are also very 
clear. It is going to cost Alaska billions and billions of 
dollars to adapt.
    There are currently four villages needing relocation, and 
our state has yet to find funding for even one of those 
relocations. Dozens more communities are threatened by climate 
change and will likely eventually need to be moved.
    Referring to Alaska's economy Ms. Herbert recently said, 
``Everything is touched by the oil and gas industry.'' I would 
point out that everything is touched by the climate crisis we 
are in.
    If we keep putting all our economic drivers in oil and gas 
and mining, these climate adaptation costs are going to get 
much, much worse and overwhelm our state's capacity. Large new 
oil projects may bring temporary wealth and high paying jobs, 
but they are robbing younger Alaskans like me of our future.
    As long as Alaska makes no effort to look beyond oil and 
gas it will keep advocating at a federal level against any 
measures that would meaningfully mitigate climate change. 
Keeping federal fossil fuel subsidies in place, for example, 
makes it difficult for sustainable sources of economic 
development to become competitive in our state.
    I acknowledge that it will not be easy to shift away from 
our state's dependence on oil development, but I think we need 
to start having serious conversations at all institutional 
levels about how to diversify our economy in ways that would 
still create high paying jobs.
    As a start I would like to urge you, Senator Murkowski, to 
vote against the Trans Pacific Partnership which would shift 
many of our jobs overseas, drive down wages and impede our 
government's ability to enact policies needed to sustainably 
develop our economy.
    Thank you.
    The Chairman. Thank you, Odin. [Applause.]
    The next three on the list are Darlene Herbert, Enei Peter 
and Anna Godin.
    Welcome, Darlene.
    Ms. Herbert. Thank you.
    My name is Darlene Herbert, and I am from Fort Yukon. I was 
born in Fort Yukon, about 50 miles south of Fort Yukon, and my 
first language was Gwich'in. I had to learn to speak English 
when I was in seventh grade. I mean I made this goal in first 
grade and we were not allowed to speak our language and anytime 
we spoke our language in the school we had our hands beaten by 
a ruler. To this day I speak my language--because of my 
grandmother. My grandmother did not know how to speak the 
English.
    I retired from Local 942. I had been up on the Slope for 
about 28 years and after that I did about eight years at Clear 
Air Force Base.
    I would like to tell you a little story my grandmother told 
me. The story came down from generation after generations for 
thousands of years and the story is all over Alaska, even the 
Eskimos and Tlingit and everybody knows this.
    There is starvation coming. We know there is starvation 
coming, and if people heed this story in the land there will be 
nothing. There will be no animals to eat, no fish to eat. We 
have to be very careful and protect our land for the 
generations to come to survive.
    We, as Alaskan Natives, have survived on this land for 
thousands and thousands of years. The reason we survive on this 
land is because we live off the land. We did not destroy the 
land.
    I know you people have a different way of seeing things. 
You guys think about money. We do not think about money. We do 
not think about oil. We do not think about gold.
    How we survive is because of the land. We have to keep our 
water clean and our air clean and also keep our animals safe. 
We only take what we need to survive. And if we do not do this 
your kids and our kids will not survive. It will be survival of 
the fittest because when starvation comes you cannot eat money 
or eat or drink oil.
    I have two granddaughters. I have one going to college to 
be a pharmacist. I have another one that is going to be a 
lawyer. I have two younger great grandkids that are going to be 
lawyers also.
    I understand that we have to learn your language. I 
understand we have to learn your laws which are a lot different 
from ours.
    When my mother and their parents lived, we all did not have 
a piece of paper to tell us where we belong or where our land 
was. We knew where our land was. We did not need a piece of 
paper. Everybody knew where their land was, and we did not need 
a piece of paper to tell us.
    I think what you guys do is you guys make too much laws for 
each other. You should keep it quite simple and look at how 
many books that guy had. I mean, do you really honestly sit 
there and read every word out of these? Keep your laws simple. 
You know, you do not need too many words. I do not understand.
    But anyways, I work for Local 942, and I get a very good 
retirement check. And I am very thankful for that. But with the 
starvation which is going to come, I think that you should 
tread very quietly and not try to destroy everything.
    I understand your need for money, but I have to do this to 
save my children behind me. I hope you take this into 
consideration when you make your laws to not destroy our 
animals, our fish, our water, our land, our air. If we do not 
change that then we will all die, and so will you. Your money 
cannot save you then. Your oil cannot save you. Your minerals 
cannot save you.
    It is going to be very hard times. My grandmother said it 
is going to be so hard there will not be any water. There will 
not be any animals.
    But we have to know how to live off the Earth because 
everything on Earth has a name and a language, everything. I 
think that you make too many laws and try to take everything 
out of the Earth.
    Your kids will have a very hard time which will make my 
kids have a very hard time. But if you are going to do all of 
this make sure that you make laws to protect the land and the 
water and the air for the generation behind us.
    Thank you.
    The Chairman. Thank you, Darlene. [Applause.]
    Enei, I am going to have you spell your full name.
    Ms. Peter. Sure.
    The Chairman. Thank you.
    Ms. Peter. My name is Enei. E, N, E, I. And then Peter is 
the last name. P, E, T, E, R.
    I just have a few quick comments to say and I would really 
like to give most of my time to an expert here in the room, who 
did not get a chance to sign up yet.
    But very quickly I just want to echo for the record 
officially that not all of your constituents want to continue 
Alaska down the path of fossil fuel economic development and 
mining.
    I am a resident here in Fairbanks. I also have lived in 
Arctic Village, Alaska. A mother, a Native woman, mother of 
three Alaska Native children who I really feel we, you, we are 
all doing a disservice to, if we do not begin transitioning our 
economy now, begin finding other jobs, sources, training our 
workforce towards a different economy. This, I heard on this 
panel over and over, the uncertainty that exists right now on 
that path of economic development.
    And so my question is, why are we continuing to put 
billions of dollars into supporting that path when that path 
has brought us to this economic decline? When, like so many 
before me have said, Princess said, this has been a forecast 
for so long. Now we really need to look to our leaders to take 
very clear steps away from that economy. We need to invest more 
into renewables. We need to provide whatever those subsidies 
are to the renewable energy sector as well as other green 
businesses.
    So with that I want to ask if I can, I do not know if I 
have any time left actually.
    The Chairman. I would like to get through those who are on 
the list before we add any others, if we could do that?
    Mr. Egan. May I be added?
    The Chairman. Yes.
    Mr. Egan. Thank you so much.
    Ms. Peter. Sorry. Thank you.
    The Chairman. Thank you, Enei.
    The next three are Anna Gadoon, Pamela Miller and Lois 
Epstein.
    So is Anna not here?
    Ms. Gadoon. I am going to pass my time tonight.
    The Chairman. Okay, alright.
    Let's go to Pamela Miller.
    There are just a couple more. Just out of respect.
    Ms. Miller. Hello. My name is Pam Miller. Thank you for 
allowing me to testify here today.
    I am here representing myself and my small business, Arctic 
Connections. I depend on the wildlands, our tourists and the 
remarkable resources that we have in the State of Alaska.
    Alaska is at an exciting time. It is a work to transform 
our economy away from oil and gas, and other fossil fuels makes 
a strapped based economy.
    I do not know that I heard the words climate change or 
global warming from a single one of the 12 panelists today. I 
do not think that they represent the views adequately of the 
people of Fairbanks or of the State of Alaska and where we are 
in our economy.
    I will make a quote from one of our quite well-known oil 
experts in this state, Larry Persily, from a recent press 
article on the radio. ``We have to accept we are not the oil 
and gas state that we once thought we were and we are never 
going to be the oil and gas state that we once were.''
    Because this is not just prices. This is production. We are 
down three-quarters from the peak, and no one out there thinks 
we have another Prudhoe Bay in our back pocket.
    So it is going to be an adjustment for Alaska. In crisis 
there is opportunity, and I think there is incredible 
opportunity in Alaska. And I believe this hearing and the 12 
testifiers very narrowly looked at what it is a resource of 
Alaska and of what is their wealth?
    People have been living in the heart of Alaska for over 
12,000 years riding on salmon. It did not come a final 
solution. They have been here. We have been here.
    When I look out right now at the transforming economy I am 
looking out 50 years. Where are we going to be? We can get 
there. We have incredible people. We have resources, clean air, 
clean water, a world class conservation system of life that 
people culture from all over the world because we have 
something no one else has.
    Folks talked about the small footprint of development in 
Arctic National Wildlife Refuge. I remember one of our great 
Republican champions for the Refuge talking about the so-called 
2,000 acres. Well, there is a small tumor in your lungs. Are 
you going to be worried about the greater cancer that happens? 
That is just a metaphor, but there is a very real difference 
between an intact, functioning land that is set aside for the 
fish and wildlife wilderness from the oil and gas 
industrialization.
    I think as a state we need to look at our powerful 
imagination, and I think that is what we are lacking a little 
bit as we were looking back instead of forward with the 
speakers here today. I have a vision that we can get to a very 
much different Alaska.
    We do not need to sacrifice our great lands like our 
National Wildlife Refuge, some of our parks and other places. 
We can get there with a renewable energy economy. We can adapt, 
first mitigate and adapt to climate change.
    We do not know how we are going to get through that door. 
We can go through the door without knowing exactly what we are 
getting, where, how we are going to get there. But we need to 
have conversations that are not one-sided, that are not biased, 
that fully represent the great wealth we have here in Alaska.
    Thank you very much.
    The Chairman. Thank you, Pam. [Applause.]
    Lois Epstein, welcome.
    Ms. Epstein. Thank you, Senator. Thank you for having 
Alaskans participate in this hearing.
    The Chairman. I am going to have you spell your last name 
too.
    Ms. Epstein. Okay, It's E, P, S, T, E, I, N.
    And hopefully we all get back to Anchorage at some point. 
[Laughter.]
    So I am an Alaska-licensed engineer. I am also the Arctic 
Program Director for the Wilderness Society. What many people 
do not know is that the Wilderness Society has been operating 
in Alaska since the 1930s and we have had our scientists 
working on Arctic-related issues, identifying important places 
and the ecology there since the early days of the organization.
    As an organization and as a member of the public we are 
greatly disappointed by the lack of important perspectives at 
this hearing. Key missing perspectives include federal 
officials, conservationists, tribal members, renewable energy 
developers, guides and outfitters, economists and others in 
support of a diversified economy in the state.
    Alaskans deserve to have this great state treated as more 
than just a resource development economy. Alaska is a land of 
intact ecosystems with some of the cleanest and most scenic 
lands and waters on Earth. There is a thriving consistent way 
of life in these parts of the state that it is our obligation 
to maintain for future generations.
    Finally, I would like to add that as many others have said 
that we cannot drill or mine our way to a sustainable state 
budget. Our elected officials should be working towards 
diversifying and reorganizing our economy now to prepare for 
the post oil future. I recognize there is a federal role 
involved as well as a state role in that, but we are clearly at 
a very important time for the state to figuring out where we 
are going for the next few decades.
    So thank you, appreciate this opportunity to speak.
    The Chairman. Thank you, Lois. [Applause.]
    The next person that we have on the list is Art Nash, and 
then by popular acclaim, this gentleman will be invited once 
Mr. Nash has spoken.
    Welcome.
    Mr. Nash. Thank you, Senator.
    That's Art Nash, N, A, S, H, like the old rambler, and I am 
with the School of Natural Resources, an extension at UAF. And 
I just wanted to, I guess, bring attention to our food 
situation in the state and food security.
    The other issues that have been talked about are high 
flying. I look more at, kind of, the direct season-to-season. I 
see that 95 percent, according to the State Department of Ag, 
of our food comes from the lower 48. That is disconcerting.
    Sometimes, you know, we will have different types of 
disruptions. It might be 9/11. Possibly in the past we have had 
volcanoes that have gone off that have interrupted traffic and 
then people, kind of, feel the pinch or a barge does not make 
it up. The people start to think about food.
    I think one of the key components of having affordable food 
in Alaska is energy. And whether it comes from coal, oil, 
natural gas or wood, I think that a continued work in policy 
and assistance on trying to figure out how to have energy 
lengthen our season, our growing season, is just a good 
investment for the state.
    Right now a lot of growers will tell you that they are not 
going to plant until it is 46 degrees which is usually, even in 
a season like last year, where we had a lot of water and the 
snow evacuated with a bit of a break up. They start in June, 
and then they pretty much end at first frost in September in 
the Interior.
    With using the energy wisely, again regardless of the 
source, it would be good to try to figure out ways to lengthen 
the season to go ahead and get another month after frost, a 
couple of months early. I think that energy, obviously, and the 
cost of energy has a lot to do with when we can extend those 
seasons and how. But I also think that with some of the things 
that have been talked about there are also opportunities that 
people may see as failures or disasters that may benefit us.
    The fact that when we do have now a very strong source of 
water that we can draw on for Ag and start to, hopefully, 
figure out how to tap, whether it be from, you know, various 
natural sources such as last year when we had in Delucia that 
we've never had a different type of weather events that are 
new. Let us take them on as opportunities and figure out how to 
put in new traps. How to, maybe, go ahead and ride on the back 
of some invasive species that are going to come anyway, figure 
out which types of foods grow best and learn from other states.
    So I know that food has not been the tenor of most of the 
discussion, but it is linked with energy. And I think that with 
the permafrost melting there are going to be some opportunities 
for maybe more crop land and trying to figure things out. And 
these are things that, like I say, may seem to be on the fringe 
of what most of today's discussion was about. But I think it is 
worth, as you go back to Washington and maybe as you work with 
other Committees and such, it is worth trying to kick around 
and kick the can down the road a little bit and trying to 
figure out how we can get more food grown in the state.
    Thank you.
    The Chairman. Thank you, Mr. Nash. [Applause.]
    Greg Egan, welcome to the Committee.
    Mr. Egan. Well, thank you so much for the opportunity. I 
did not think that you were going to go past four, so I thought 
my odds were really low for signing up. So I did not.
    The Chairman. You get to bring up the end here, so thank 
you.
    Mr. Egan. My name is Greg Egan. My company is Remote Power, 
Inc. I have a small company here in Fairbanks.
    The Chairman. Could you spell your last name?
    Mr. Egan. E, G, A, N.
    I have a company here in Fairbanks, and we have designed 
and installed solar and wind power systems for a couple of 
decades, mostly small stuff.
    And so I think a lot of people think that is what I want to 
talk about and that was really it, but I will mention that 
there is and I am sure you are aware of this in the lower 
Kuskokwim area. I want to say Quinhagak, Togiak and two other 
villages, they have systems in place now where they are turning 
the diesel engines off and running off of wind and they are 
using thermal storage. They look like little pellet stoves only 
they are electric and they fire brick in them.
    The Chairman. I have seen them.
    Mr. Egan. Yeah, I know you have.
    And there was a nice article on Alaska News Nightly maybe a 
month or so ago that talked about it that I was lucky enough to 
hear.
    So anyway, there is some things that are not pie in the 
sky. They are not far off in the distance. They are actually 
happening now and they are happening--with renewable energy.
    So I think that it is okay that we focus on that. We do not 
have to try to reinvent the wheel.
    What I really wanted to, what I was thinking of speaking 
about, was a little bit about climate change and trying to 
explain something. I think this is really important, okay.
    I am an old refrigeration mechanic. I am not a scientist. 
James Hansen has a recent paper, and one of the things he says 
here is he is talking about climate change. ``The economic cost 
of losing functionality of all coastal cities is practically 
uncalculable.''
    This is a guy that talked to Congress in 1988. He's a NASA 
scientist. He and 18 other co-authors, you know, had this study 
done recently, a couple of weeks ago now.
    We suggest that a strategy reliant on adaptation to such 
consequences will be unacceptable to most of humanity. So it is 
important to understand this threat as soon as possible.
    So and to try and help with that, okay? I was a 
refrigerator mechanic. I learned a long time ago that in order 
to melt a pound of ice, changing from ice to water. So just a 
phase change, not temperature. This is 16 ounces. This is about 
a pound of ice. It takes 144 BTUs. Okay? It takes the same 144 
BTUs to warm over 17 gallons of water, one degree.
    So the reason this is important to understand is that there 
is, when you read papers from these geoscientists and such, who 
talk about how many gigatons of ice have been melted and so on 
and so forth. You have got about--there used to be. All that 
heat combined with that ice is huge.
    And if you think about it as a hunter if you have a serious 
freezer, 18 cubic foot, 20 cubic foot, you shoot a moose. You 
drag it home and you throw that moose in the freezer and you 
think it is going to freeze? You know, you find out that except 
for when the engine is frozen, the stuff in the middle died 
because it takes so much heat to change the state of liquid to 
ice or ice to liquid.
    It takes one BTU is what is needed to raise one pound of 
water, one degree Fahrenheit. That is just a definition. Okay? 
One hundred forty-four BTUs could change a pound of ice to a 
pound of water at 32 degrees, not change the temperature at 
all. So it just takes something into exponential thing and it 
is hard for us to wrap our minds around that. It is hard for us 
to wrap our minds around compound interest.
    But anyway, whether it is hard to wrap around or not, that 
is what is going on. And it is going to cause everyone big 
problems, be they Alaskans, be they one of the billion coastal 
refugees in the future. That, I think, is an important point. 
And I think it makes sense. This is a pound of water compared 
to 17, over 17 gallons of water. To melt this, you could heat 
17 gallons of water, you know, from 33 degrees to 34.
    Hope that makes sense. Thank you so much for letting me, 
allowing me to speak.
    The Chairman. Thank you, Mr. Egan. [Applause.]
    I would like to thank the 12 people who provided public 
testimony. We appreciate your comments as well as that of the 
panel of 12 Alaskans that we had heard from.
    As I mentioned at the outset for those who might wish to 
submit written testimony to be incorporated as part of the 
record, it will be held open for two weeks from today. You may 
submit that testimony by talking to Annie Hoefler right over 
here. Annie will make sure that we have the right way to 
communicate any additional input that you may have.
    I mentioned my thanks to Chad Hutchinson and those here at 
the Training Center for opening their doors, but I also want to 
give a specific shout out to Michelle Foley. I do not know if 
Michelle is still here. There she is over there. Michelle, 
thank you. You have made this happen very effortlessly and 
easily and working with my staff on the Energy Committee. We 
appreciate that as well.
    Again, the intention for today's hearing, in addition to 
hearing from those who provided testimony, was really to 
provide a base for examination of those ways and methods that 
we can help facilitate opportunities for Alaskans wherever they 
may be, whether they are down in Ketchikan, Barrow or places in 
between and recognizing our full potential as Alaskans. But 
also the opportunities and the challenges that present 
themselves in a place that is as unique and remarkable and 
filled with human resources as well as God-given resources and 
our responsibility to one another in that.
    So thank you for the opportunity to be with you. We have 
overextended thanks to Mount Pavlof today.
    With that, the Energy and Natural Resources Committee is 
adjourned.
    [Whereupon, at 4:42 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                             [all]
                      
                      
                      



                      
</pre></body></html>
